<html>
<title> - FILTERING PRACTICES OF SOCIAL MEDIA PLATFORMS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
             FILTERING PRACTICES OF SOCIAL MEDIA PLATFORMS

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 26, 2018

                               __________

                           Serial No. 115-56

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
 


      Available via the World Wide Web: http://judiciary.house.gov
      
      
      
      
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 32-930                 WASHINGTON : 2018            
 
 
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JERROLD NADLER, New York
    Wisconsin                        ZOE LOFGREN, California
LAMAR SMITH, Texas                   SHEILA JACKSON LEE, Texas
STEVE CHABOT, Ohio                   STEVE COHEN, Tennessee
DARRELL E. ISSA, California          HENRY C. ``HANK'' JOHNSON, Jr., 
STEVE KING, Iowa                         Georgia
LOUIE GOHMERT, Texas                 THEODORE E. DEUTCH, Florida
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
TED POE, Texas                       KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC L. RICHMOND, Louisiana
TREY GOWDY, South Carolina           HAKEEM S. JEFFRIES, New York
 RAUL LABRADOR, Idaho                DAVID CICILLINE, Rhode Island
BLAKE FARENTHOLD, Texas              ERIC SWALWELL, California
DOUG COLLINS, Georgia                TED LIEU, California
KEN BUCK, Colorado                   JAMIE RASKIN, Maryland
JOHN RATCLIFFE, Texas                PRAMILA JAYAPAL, Washington
MARTHA ROBY, Alabama                 BRAD SCHNEIDER, Illinois
MATT GAETZ, Florida                  VALDEZ VENITA ``VAL'' DEMINGS, 
MIKE JOHNSON, Louisiana                  Florida
ANDY BIGGS, Arizona
JOHN RUTHERFORD, Florida
KAREN HANDEL, Georgia
KEITH ROTHFUS, Pennsylvania

          Shelley Husband, Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel

                                 ------                                
                            C O N T E N T S

                              ----------                              

                             APRIL 26, 2018

                           OPENING STATEMENTS

                                                                   Page
The Honorable Bob Goodlatte, Virginia, Chairman, Committee on the 
  Judiciary......................................................     1
The Honorable Jerrold Nadler, New York, Ranking Member, Committee 
  on the Judiciary...............................................     3

                               WITNESSES

The Honorable Marsha Blackburn, 7th District of Tennessee, U.S. 
  House of Representatives, Panel 1
    Oral Statement...............................................     5
The Honorable Jim Himes, 4th District of Connecticut, U.S. House 
    of Representatives, Panel I
    Oral Statement...............................................     6
Lynnette ``Diamond'' Hardaway and Rochelle ``Silk'' Richardson, 
  Social Media Personalities
    Oral Statement...............................................     9
Berin Szoka, President, TechFreedom
    Oral Statement...............................................    11
Prof. Ari Waldman, Associate Professor of Law, Director, 
  Innovation Center for Law and Technology, New York Law School
    Oral Statement...............................................    13
David Chavern, President and Chief Executive Officer, News Media 
  Alliance and American Press Institute
    Oral Statement...............................................    14


             FILTERING PRACTICES OF SOCIAL MEDIA PLATFORMS

                              ----------                              


                        THURSDAY, APRIL 26, 2018

                        House of Representatives

                       Committee on the Judiciary

                             Washington, DC

    The committee met, pursuant to call, at 10:00 a.m., in Room 
2141, Rayburn House Office Building, Hon. Bob Goodlatte 
[chairman of the committee] presiding.
    Present: Goodlatte, Smith, Chabot, Issa, King, Gohmert, 
Jordan, Marino, DeSantis, Buck, Roby, Gaetz, Biggs, Handel, 
Rothfus, Nadler, Lofgren, Jackson Lee, Johnson of Georgia, 
Deutch, Bass, Jeffries, Cicilline, Lieu, Raskin, Jayapal, 
Schneider, and Deming.
    Staff Present: Shelley Husband, Staff Director; Branden 
Ritchie, Deputy Staff Director; Zach Somers, Parliamentarian 
and General Counsel; Bobby Parmiter, Chief Counsel, 
Subcommittee on Crime, Terrorism, Homeland Security, and 
Investigations; Jason Cervenak, Counsel, Subcommittee on Crime, 
Terrorism, Homeland Security, and Investigations; Beg Barr, 
Counsel, Subcommittee on Crime, Terrorism, Homeland Security, 
and Investigations; Paul Taylor, Chief Counsel, Subcommittee on 
the Constitution and Civil Justice; Alley Adcock, Clerk; David 
Greengrass, Minority Counsel; James Park, Minority Counsel; 
Matthew Morgan, Minority Counsel; Danielle Brown, Minority 
Legislative Counsel; Joe Graupensperger, Minority Counsel; and 
Rachel Calanni, Minority Professional Staff Member.
    Chairman Goodlatte. Good morning. The Judiciary Committee 
will come to order and without objection the chair is 
authorized to declare recesses of the committee at any time. We 
welcome everyone to this morning's hearing on ``Filtering 
Practices on Social Media Platforms''; and I will begin by 
recognizing myself for an opening statement.
    Today's hearing will examine how social media companies 
filter content on their platforms. According to a February 2018 
fact sheet published by Pew Research Center, today around 7 in 
10 Americans use social media to connect with one another, 
engage with news content, share information, and entertain 
themselves.
    In a survey released in March, Pew found that Facebook 
dominates the social media landscape with 68 percent of U.S. 
adults stating that they use this social media platform online 
or on their cellphone.
    This same survey found that nearly three-quarters of U.S. 
adults use YouTube, a platform with many social media elements 
including 94 percent of 18 to 24-year-olds. Also covered in 
this survey was Twitter, which controls a smaller demographic, 
but nevertheless attracts 40 percent of 18 to 24-year-olds to 
its platform.
    While it is clear that these numbers show that social media 
platforms have direct control over incredible volumes of user-
created content, the method by which these companies manage 
this content is far from clear. Facebook, Google, and Twitter 
in many cases would like to appear as neutral channels.
    YouTube, a subsidiary of Google, for example states that 
its purpose is to give everyone a voice and show them the 
world. But this goal and those of the others appear wildly 
aspirational and do not reflect the true nature of the business 
that these for-profit companies engage in.
    In reality, these companies, like all other legitimate 
businesses, are exercising great care and discretion to ensure 
that their services are not abused. For example, we know that 
they monitor content to ensure that no illegal activity such as 
fraud, piracy, identity theft, and sex trafficking, among 
others, is being committed on their platforms. This fact should 
not surprise us. Indeed, they are required to do so.
    However, beyond illegal activity, as private actors we know 
that these companies manage content on their platforms as they 
see fit. The First Amendment offers no clear protections for 
users when Facebook, Google, or Twitter limits their content in 
any way.
    Moreover, they maintain terms of service pages which 
contain rules that users must agree to abide by in order to use 
their platforms, and at least in some cases, when content is 
identified as violating a company's terms of service, it is 
subject to human review.
    There is, however, a fine line between removing illegal 
activity and suppressing speech, and while these companies may 
have legal, economic, and ideological reasons to manage their 
content like a traditional media outlet, we must nevertheless 
weigh, as a Nation, whether the standards they apply endanger 
our free and open society and its culture of freedom of 
expression, especially when it is through these channels that 
our youth are learning to interact with each other and the 
world.
    Speaking before the Phoenix Chamber of Commerce in 1961, 
Ronald Reagan observed that ``Freedom is never more than one 
generation away from extinction.'' In a 2017 communication to 
the Facebook community, CEO Mark Zuckerberg asked the following 
question, ``Are we building the world we all want?'' That is 
the very question presiding over this hearing today, and while 
I am pleased to ask this question to our distinguished panel of 
witnesses appearing before us today, it is unfortunate, despite 
our repeated invitations, representatives from Google, 
Facebook, and Twitter have declined to testify.
    If this is any indication of their efforts to be more 
transparent, then we all may already have our answer to Mr. 
Zuckerberg's question. With that, I want to thank all of our 
witnesses in attendance today and I look forward to your 
testimony.
    It is now my pleasure to recognize the ranking member of 
the committee, the gentleman from New York, Mr. Nadler, for his 
opening statement.
    Mr. Nadler. Thank you, Mr. Chairman. Priorities matter, Mr. 
Chairman. Over the course of the past year, the majority has 
refused to hold hearings to conduct oversight of any kind on 
any topic related to social media. The majority has turned a 
blind eye both to discreet cases, like the theft of millions of 
Facebook user profiles by Cambridge Analytica, and to broader 
questions, like the fraud policies that allow those user 
profiles to escape in the first place.
    Time and again, House Republicans have attempted to turn 
the committee's attention away from these issues, either 
ignoring or hoping to distract from the serious conversations 
we should be having.
    Over the past year alone, the majority has refused our 
request to hold hearings on how Russian operatives leverage 
social media to influence the 2016 elections, refused the 
Congressional Black Caucus's request to hold hearings on how 
those Russian influence pieces targeted minority voters, 
blocked the minorities' access to those advertisements when 
Facebook offered them to us since they were offered on the 
condition that the chairman join us in requesting them, refused 
to issue subpoenas or even ask really for information from 
Cambridge Analytica and Giles Parscale, two consultants for the 
Trump campaign that appear to have coordinated with foreign 
actors during the 2016 campaign, premised those briefings with 
various social media companies but never delivered, decided 
that we should be the only committee of jurisdiction not to 
hear from Facebook CEO Mark Zuckerberg, directly, after his 
appearances before the House Energy and Commerce Committee, the 
Senate Judiciary Committee, and the Senate Commerce Committee, 
refused to call Cambridge Analytica whistleblower Christopher 
Wylie before the committee for a transcribed interview, and, 
just this week, declined my invitation to participate in an 
interview with Mr. Wylie after Democrats arranged for the 
interview on our own.
    In short, House Republicans have no time for substantive 
oversight of the Trump administration or election security or 
privacy policy or even a discussion about the wisdom of 
regulating social media platforms, but they have made time for 
Diamond and Silk. They have prioritized this spectacle over 
every other conversation we should be having today and should 
have been having for the last year and a half.
    Now, to be clear, Ms. Hardaway and Ms. Richardson are 
entitled to say whatever they would like about President Trump 
or anyone else, but the majority has called them here to stand 
for the baseless preposition that Facebook, Google, and Twitter 
are engaged in a Silicon Valley plot to censor Conservative 
voices. Let us review the facts.
    Based on what I understand to be a single communication 
from Facebook, Ms. Hardaway and Ms. Richardson--in an email 
that the CEO of the company has already admitted was sent in 
error, our witnesses will claim that Facebook is censoring 
their posts.
    Of course, Ms. Hardaway and Ms. Richardson primarily make 
that argument on Facebook where they have 1.4 million followers 
and have posted as 100,000 likes and 60,000 shares. Nearly 
350,000 additional users have liked their Facebook page in the 
past 3 weeks alone.
    Most of my colleagues on both sides of the aisle would kill 
for that kind of reach on social media. The witnesses will 
complain that Facebook has limited the ability of their 
followers to interact with their Facebook page, but the data 
show that their Facebook page received more total interactions 
in March 2018 when they were supposedly being censored than in 
March 2017 fresh off President Trump's victory.
    So the censorship argument, the central thesis of this 
hearing, does not hold up under even the most basic scrutiny, 
which is not to say, Mr. Chairman, that the committee should 
not have a hearing about how filtering works on private social 
media platforms.
    ``Social Media Filtering Practices and their Effect on Free 
Speech,'' the title of this hearing, is a fine topic for 
discussion and one I would encourage you to schedule, but that 
is not what today's hearing is about and the majority knows it.
    The notion that social media companies are filtering out 
Conservative voices is a hoax, a tired narrative of imagined 
victimhood as the rest of the country grapples with a feckless 
President and an out-of-control administration.
    The majority designed this hearing to perpetuate that hoax. 
Conservative commentary, including conspiracy theories of a 
Conservative bent, regularly rank among the most far-reaching 
posts on Facebook and elsewhere. To argue otherwise is to 
ignore the facts or to act in bad faith or both.
    And to make matters worse, the majority has prioritized 
this hoax over matters that the committee should have 
investigated long ago. Their decision to hold this hearing 
while still ignoring questions of substance that have been 
squarely before us for months does real and lasting damage to 
this esteemed committee.
    What are House Republicans so afraid of that they will not 
even join us in asking questions about Facebook or Russian 
advertisements or a host of other issues, some that I mentioned 
earlier, that are clearly a priority for the public? Priorities 
matter, Mr. Chairman. We should be holding a bipartisan hearing 
on any one of a long list of other topics. We could have easily 
worked on that project together. This committee can do better. 
I yield back.
    Chairman Goodlatte. With unanimous consent, I would like to 
enter the following into the record, a letter with attachments 
from Adriana Cohen, a syndicated columnist and Boston Herald 
radio host, a statement from Corinne McSherry of the Electronic 
Frontier Foundation, a statement from the Electronic Privacy 
Information Center, EPIC, and a letter EPIC sent to the Federal 
Trade Commission in 2011 regarding Google and search results on 
YouTube, and a statement from the National Religious 
Broadcasters.
    Chairman Goodlatte. I would like to now welcome our first 
panel of witnesses. Our first witness is the Honorable Marsha 
Blackburn from the Seventh District of Tennessee, and our 
second witness is the Honorable Jim Himes from the Fourth 
District of Connecticut. Your written statement will be entered 
into the record in its entirety and we ask that you summarize 
your testimony in 5 minutes, and Representative Blackburn, we 
will begin with you. Welcome.

    STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman, and Mr. Nadler, 
and to my colleagues on the committee, thank you for inviting 
me to testify at this hearing. I am honored to be here and talk 
about online censorship.
    There are growing concerns about how and why Big Tech 
companies are making decisions to ban, deprioritize, or 
otherwise filter completely legal speech online. When Mark 
Zuckerberg testified earlier this month, every time someone 
asked about censoring Conservatives, he said that Facebook 
takes down bad content like terrorism. When he gave me that 
answer, I responded that Diamond and Silk are not terrorism, 
but this problem is more far-reaching than Diamond and Silk.
    Last October, Twitter blocked my campaign launch video from 
its ads platform due to my pro-life message. This ban 
threatened the fundamental freedom to engage in political 
speech. For example, broadcasters are forbidden under section 
315 of the Communications Act from censoring the ad of a 
political candidate even if it has disturbing content or 
language.
    Like social media platforms, broadcasters clearly are 
private entities with their own First Amendment rights, but 
even so, we recognize that some speech is so important that we 
must protect its access to an important platform.
    Twitter reversed its decision in my case, but the bans keep 
coming. Just a few days ago, Google banned a large Lutheran 
denomination from its ads platform. YouTube banned the entire 
channel of Spike's Tactical, a well-known firearm manufacturer. 
When bans get reversed, we are told, ``Well, mistakes were 
made,'' but why is it that the mistakes nearly always seem to 
run in one direction?
    To make matters worse, many of these decisions are made 
within the black box of an algorithm. Facebook recently tweaked 
its algorithm to prioritize content that is, and I am quoting, 
``Trustworthy, informative, and local,'' end quote. No one 
knows exactly what that means, but we do know that since then, 
there has been a significant reduction in traffic from Facebook 
to some of the most prominent Conservative sites.
    As chair of the Communications and Technology Subcommittee, 
we held a hearing in November on algorithms. Our findings show 
that Big Tech platforms are the new public square, and their 
executives, as the gatekeepers, are the new governors, but 
these governments do not have a First Amendment. Free speech as 
a value is endangered even here in America and is nonexistent 
in most of the world. We need to recognize that the global 
reach of these companies creates overwhelming pressure against 
free speech and we need to do a better job of counteracting 
that pressure.
    But section 230 of the Communications Act gives online 
platforms a broad immunity from liability for user-generated 
content except for a responsibility to take down certain 
things, like child sex trafficking, theft of intellectual 
property, or terrorism. This should translate into more 
freedom, not less, for their users, but instead, we are seeing 
more and more content censored by these new governors on some 
very flimsy pretenses.
    As such, perhaps it is time to review some of our 
fundamental assumptions. I had the ability to fight back. 
Diamond and Silk had the ability to fight back. But what about 
the thousands of others being thrown out of our new public 
squares for no good, definable reason? We are here today to 
speak up for them and we are here today to speak up for free 
speech.
    I thank the committee for your attention to the issue. I 
look forward to the discussion. I yield back.
    Chairman Goodlatte. Thank you, Representative Blackburn. 
Representative Himes, welcome.

STATEMENT OF HON. JIM HIMES, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CONNECTICUT

    Mr. Himes. Thank you, Chairman Goodlatte, Ranking Member 
Nadler, and distinguished colleagues. When I came to the 
Congress almost 10 years ago, I was overwhelmed by the 
privilege of working here. Even now, I cannot quite shake the 
feeling that we serve in the shadow of people like Abraham 
Lincoln, Sam Rayburn, and Shirley Chisholm. Now I sit in front 
of this storied committee with a simple message: the truth 
matters.
    This committee shapes our courts. It oversees the 
enforcement of our laws. It balances our cherished liberties 
with our need for security. To this committee especially, the 
truth matters, yet today this committee meets to promote a 
false narrative. It meets to continue the hoax, now fully 
rebutted, that Facebook and other social media have mounted a 
deliberate crusade to filter out Conservative opinion.
    Congress and this committee should look hard at Facebook. 
Over 2 billion people use it. The Kremlin used it to widen 
American fault lines before an election. It has personal data 
on all of us. People get their news from Facebook. That is huge 
power. That power must be constrained by fairness, care, and 
responsibility, and making sure that happens is our job.
    Congress and the social media companies must make sure they 
contribute positively to American life. Instead, today we will 
amplify the financially lucrative and politically convenient 
hoax that Facebook is purposefully censoring Diamond and Silk.
    Let us spend a minute on the facts. Diamond and Silk got 
into a complicated commercial dispute with Facebook about how 
you can make money on their site. Facebook mistakenly told them 
their content had been judged unsafe. Facebook publicly and 
privately acknowledged their mistake, apologized, and reached 
out to them by phone, on email, and on Twitter to work this 
out.
    And most importantly, as the charts next to me show, 
Diamond and Silk suffered no decline in their interactions 
online compared to such Liberal sites as Rachel Maddow and The 
Young Turks.
    [Chart]
    Mr. Chairman, I was in business for many years. Assuming 
that roughly half of Facebook users lean right, what possible 
business logic is there in alienating half of your customers? 
There is none. Those are the facts and that is the truth, and 
the truth matters.
    The problem is this particular truth is pretty boring. A 
commercial dispute does not fire anybody up. It does not play 
into the carefully manufactured fear of the American right that 
everybody is out to get them. Never mind that the right 
controls the White House, both Houses of Congress, more and 
more of the Supreme Court, and governorships all over America, 
never mind Sinclair, never mind the global Murdoch news empire, 
the right must be under siege, because if there is no siege, 
there is no fear and there is no anger.
    And without fear and anger, well, people might not show up 
at the polls. Without fear and anger, people might ask 
themselves why we are mortgaging our children's future rather 
than improving their education. They might wonder why we have 
not lifted a finger to shore up Social Security. They might 
realize that we have done absolutely nothing to rebuild our 
ports and our highways and our railroads.
    I was moved yesterday when President Macron of France spoke 
to us. From where I sat, you could look just past him and see 
the Marquis de Lafayette. Do you remember what he said? He 
said, ``You can plan on fear and anger for a time, but they do 
not build anything.'' Eventually everyone will know that the 
charge that Facebook filters out Conservative commentary is 
untrue, and that charge will go the way of Pizzagate and stand 
down orders at Benghazi, of Obama wiretapping Trump and the 
Vince Foster murder, and all of these conspiracies that sprout 
around here like spring flowers. But in the meantime, we will 
have put one more dent in our democracy.
    Do not take it from this Democrat. Yesterday, Matt 
Mackowiak, a Republican consultant and a veteran of the Bush 
administration, wrote in the Washington Times, quote, ``our 
obsession with political theater has brought us to the point 
where now a respected and important House committee will spend 
several hours taking testimony from two YouTube celebrities, 
all done at taxpayer expense.''
    President Macron said something else yesterday that sticks 
with me. He said, ``Without truth, there is no real democracy 
because democracy is about true choices and rational 
decisions.'' The corruption of information is an attempt to 
corrode the very spirit of our democracies.
    Mr. Chairman and Mr. Ranking Member, let's see past our 
differences. Let us see past the nonsense. Let us put past our 
differences to fight that corruption and that corrosion because 
the truth matters. Thank you.
    Chairman Goodlatte. I would like to thank our first panel 
of witnesses for being here today, and since we do not ask 
questions of Members of Congress, we are going to thank you and 
excuse both of you.
    I would now like to introduce our second panel. Our first 
witness, Google, which has refused to appear today, is ranked 
first in the world and in the United States for user traffic 
according to Amazon's Alexa, which tracks such data. In 
addition to being the top search engine in the world, its 
subsidiary, YouTube, attracts 30 million daily visitors and 
boosts a total of 1.3 billion users.
    Google has been accused of maintaining bias against 
Conservative views, both internally and on their platform. For 
example, PragerU, a channel that features educational videos 
featuring the world's best thinkers such as Harvard Law 
professor Alan Dershowitz speaking about the founding of 
Israel, was unjustly restricted by YouTube through a feature 
intended to filter out, quote, ``Inappropriate content for 
younger audiences.''
    The list of restricted content according to PragerU 
included videos title, ``Why America Must Lead,'' ``The 10 
Commandments Do Not Murder,'' ``Why Did America Fight the 
Korean War,'' and ``The World's Most Persecuted Minority: 
Christians.''
    According to Dennis Prager, PragerU's founder, ``Watch any 
of our videos and you will immediately realize that Google/
YouTube censorship is entirely ideologically driven. For the 
record, our videos are presented by some of the finest minds in 
the western world, including four Pulitzer Prize winners, 
former prime ministers, and professors from the most 
prestigious universities in America.'' As a result, PragerU has 
taken legal action in Federal court.
    Our second witness today, which has also refused to appear, 
is Facebook. Facebook's website, according to Alexa, ranks 
third in the United States and in the world. It receives 1.4 
billion daily active users and boasts that people can, quote, 
``Express themselves freely,'' end quote, on its platform.
    According to a report issued by Media Research Center, this 
company suppresses pro-life advertisements in addition to 
Conservative content. For example, quote, ``Both Right to Life 
Michigan and the Wexford/Missaukee Right to Life were unable to 
advertise on the site because Facebook did not support ads for 
their business model,'' end quote. According the report, 
Facebook only permitted the ads after media attention.
    In addition to the suppression of Conservative and pro-life 
content, Facebook has been accused of removing content related 
to a police shooting that sparked overwhelming national 
attention. In the summer of 2016, the aftermath of the tragic 
shooting of Philando Castile was livestreamed through Facebook.
    According to one description of Facebook's actions, quote, 
``It suddenly disappeared from Facebook.'' A few hours later, 
the footage reappeared, this time with a label affixed warning 
of graphic content. In official statements, Facebook blamed the 
takedown on a technical glitch but provided no further details. 
I believe we will learn more about, quote, ``enforcement 
errors,'' end quote, and ``technical glitches,'' end quote, 
later in this hearing.
    Our third witness is Twitter. Like our other invited 
witnesses on this panel, Twitter refused to attend. According 
to Alexa, Twitter's website ranking is 8th in the United States 
and 13th in the world. In terms of traffic, approximately 8,000 
tweets are sent per second.
    In addition to the attacks on Representative Blackburn's 
pro-life ads, Twitter has been accused of suppressing the pro-
life advertisements of Live Action. According to the report 
issued by the Media Research Center, Twitter demanded Live 
Action purge not only its Twitter, but also its website of a 
multitude of content including ultrasounds in order for it to 
advertise on the platform. Twitter was effectively trying to 
force Live Action to stop promoting everything it did as an 
investigative pro-life organization.
    While this committee has presented the opportunity for 
these companies to come and describe their filtering practices 
and answer questions that members on both sides of the aisle 
have about these practices, their refusal to appear only 
creates more questions and more concerns. The committee has 
resolved to have its questions answered directly by these 
companies, and we will pursue whatever means necessary to get 
those answers.
    We now welcome our third panel of distinguished witnesses 
who I believe are here. Thank you all for joining us today. If 
you would all please rise, I will begin by swearing you in.
    Do you and each of you swear that the testimony that you 
are about to give is the truth, the whole truth, and nothing 
but the truth, so help you God? Thank you very much. Let the 
record show that all of the witnesses answered in the 
affirmative.
    Our first witnesses are social media personalities Lynette 
``Diamond'' Hardaway and Rochelle ``Silk'' Richardson; our 
second witness, Berin Szoka, the president of TechFreedom; our 
third witness is Professor Ari Waldman, a professor of law and 
the director of the Innovative Center for Law and Technology at 
New York Law School; and our fourth and final witness of the 
day is David Chavern, the president and CEO of News Media 
Alliance and the American Press Institute.
    Your written statements will all be entered into the record 
in their entirety and we ask that each of you summarize your 
testimony in 5 minutes. To help you stay within that time, 
there is a timing light on your table. When the light switches 
from green to yellow, you have 1 minute to conclude your 
testimony. When the light turns red, it signals your 5 minutes 
have expired.
    Ms. Hardaway and Ms. Richardson, you may begin. I 
understand you are going to share your 5 minutes.
    Ms. Hardaway. Yeah, I think so.
    Chairman Goodlatte. Welcome.

  STATEMENTS OF DIAMOND AND SILK, SOCIAL MEDIA PERSONALITIES; 
    BERIN SZOKA, PRESIDENT, TECHFREEDOM; PROF. ARI WALDMAN 
DIRECTOR, INNOVATION CENTER FOR LAW AND TECHNOLOGY PROFESSOR OF 
    LAW, NEW YORK LAW SCHOOL; AND MR. DAVID CHAVERN, CHIEF 
  EXECUTIVE OFFICER, NEWS MEDIA, ALLIANCE AND AMERICAN PRESS 
                           INSTITUTE

                 STATEMENTS OF DIAMOND AND SILK

    Ms. Hardaway. We would thank the Judiciary Committee for 
allowing us the opportunity to voice our concerns about 
Conservatives being targeted and censored on social media 
platforms.
    Facebook, along with other social media sites, have taken 
aggressive actions to silence Conservative voices such as 
ourselves by deliberately restricting and weaponizing our page 
with algorithms that censor and suppress our free speech. These 
biased algorithms are tactics designed to pick up on key words, 
thus telling the pages how to behave in ways that repress and 
stifle expressed ideas, including shadow banning which blocks 
our content from being seen by our followers while depriving 
our brand through the demonetization of our videos.
    Followers stop receiving notification of when we posted 
videos and content followers were also mysteriously unliked 
from our page. Subtly and slowly, Facebook used one mechanism 
at a time to diminish our reach by restricting our page so that 
our 1.2 million followers would not see our content, thus 
silencing our Conservative voices. When we reached out to 
Facebook for an explanation, they gave us the runaround.
    Mark Zuckerberg testified before Congress and stated that 
the most important thing he cared about was making sure no one 
interferes in the 2018 elections, but after doing our research, 
we wondered if Mark Zuckerberg was using Facebook to interfere 
in the 2018 elections by labeling users' accounts as either 
Liberal, very Liberal, Moderate, Conservative, or very 
Conservative.
    This is one of the main underhanded ways to censor 
Conservatives. So if I am labeled as very Liberal without the 
option to edit it, update, and correct the setting, then 
algorithms are already put in place which allows advertisers 
that have Liberal views services and causes to target at me. 
And you can see the graph on the screen and it shows clearly 
that our personal accounts have been already labeled.
    [Graph]
    Diamond and Silk's personal Facebook page has been labeled 
by Facebook as very Liberal. Even though we are not very 
Liberal, Facebook does not give us the option to change this 
label to Conservative, making it less likely for us to see 
advertisements, news stories, and services for a Conservative 
point of view. If Facebook labeled our user accounts as very 
Liberal and got it wrong, how many more other users' accounts 
have they gotten wrong?
    On September 7th, 2017, we received a message on our 
Facebook page which stated that limits had been placed on 
Diamond and Silk, and you can see pictures too. You can see on 
picture three all of the complaints that have come in from our 
followers where they are not receiving notifications. When 
watching our videos, it stops. They cannot watch our videos.
    We have also noticed how someone with a Liberal point of 
view that spews hate against the President can garner up to 19 
million views with only 539,000 followers, yet we have 1.2 
million followers and only receive 13,000 views on a video, and 
you can see that in picture four.
    And then in picture five, you can see the comparison from 
back then until today. Also, if you look at picture five, part 
two, when we uploaded a video on March 4, with 1.2 million 
people, we were only able to reach 37,000 views. But as soon as 
Mark Zuckerberg and Facebook--this issue came to light and they 
started taking those algorithms off, we uploaded the same video 
on April the 12th and it was able to garner 400,000 views.
    After looking at our analytical on picture five, part 
three, after looking at our analytical you can clearly see that 
the restrictions are back because after the 12th, everything 
started going back downhill.
    In 2016, with less than 1 million followers, our reach page 
would garner 5 to 8 million people or more within a week. All 
of that changed when the algorithms were placed back on our 
page to suppress our reach.
    YouTube also demonetized 95 percent of our videos in 2017, 
categorizing it as hate speech even though our account was in 
good standards. We also show that Mark Zuckerberg said that he 
does not allow hate speech, yet when people say the words ``I 
hate'' or ``we hate,'' those people also garner views.
    Was it an enforcement error for 6 months, 29 days, 5 hours, 
40 minutes, and 43 seconds of chatting and emailing about the 
same issue and being told that my issue would be escalated to a 
Facebook team, a spam team, the technical team, the appeals 
team, the internal team, the policy team, only to be told on 
January the 8th, 2018 that a request was never sent? And we 
have the proof--see picture 10 and picture 11.
    Censorship is no hoax. It is real. It is wrong for these 
social media giants to suppress and disregard people by 
diminishing and denying them their free speech. If social media 
is supposed to be a place for all ideas or to express an idea, 
then algorithms and tactics should not be in place to suppress 
some ideas. Thank you.
    Chairman Goodlatte. Thank you, Ms. Hardaway. Mr. Szoka, 
welcome.

                    STATEMENT OF BERIN SZOKA

    Mr. Szoka. Thank you, Chairman Goodlatte, the Ranking 
Member Nadler. Thank you for----
    Chairman Goodlatte. Turn your microphone on.
    Mr. Szoka. Thank you. Thank you, Chairman Goodlatte, 
Ranking Member Nadler, for inviting me to testify here before 
your committee today.
    Mr. Chairman, it is a particular honor to testify before 
your retirement. We at TechFreedom have not always agreed with 
you over the years, but I have always considered you to be 
among the most thoughtful members of Congress, a true lawyer's 
lawyer.
    I particularly commend you for the work that your committee 
did over the last year on how to combat online sex trafficking. 
The legislation produced by this committee was carefully 
tailored to help prosecutors stop sites like Backpage and 
ensure that victims receive restitution. Your bill, which I am 
sorry to say was combined with another less thoughtful bill, 
would have done so without disrupting the careful balance 
struck by Congress in section 230 of the Communications Decency 
Act of 1996.
    So I am here today to remind lawmakers why Congress made 
the right decision in enacting section 230 and to explain why a 
Fairness Doctrine for the internet would be an even worse idea 
than was a Fairness Doctrine for broadcasting.
    In recent hearings with Facebook's CEO, lawmakers 
repeatedly asked about Facebook's supposed political bias. As 
the president of a small nonprofit dedicated to free markets 
and constitutionally limited government in technology policy, I 
have never encountered such bias. Yes, we struggled to get our 
message out, but that is probably because our message is more 
complicated than the sensationalism coming from advocates for 
bigger government. We are, after all, lawyers and not 
activists.
    I often hear Conservative groups complain about the bias of 
social media platforms, but from what I can see after a decade 
in this field, their real problem is that they just do not use 
social media well. And let us face it, the young people who use 
social media best and reshare it most eagerly are 
overwhelmingly leftwing. This is not the fault of Facebook, 
Google, YouTube, or any other platform. It has just always been 
true.
    At the Zuckerberg hearing, I was dumbstruck to hear 
Conservative Senators call for what amounts to a Fairness 
Doctrine for the internet. First enacted in 1949, the FCC's 
Fairness Doctrine was supposed to encourage robust debate in 
broadcasting. Instead, it did the opposite. Broadcasters 
avoided controversial topics. That enforced bland orthodoxy on 
radio and television, entrenching what Conservatives still call 
the mainstream media and stifling alternative voices like talk 
radio.
    It was President Reagan and his FCC who ended enforcement 
of this insane policy, and yes, eventually Democrats saw the 
light too. In 2011, it was President Obama's FCC chairman who 
finally took the Fairness Doctrine off the books forever.
    Yet now, apparently out of misdirected frustration, it is 
Conservatives who are talking about reviving the Fairness 
Doctrine, and this time for the internet and as a condition for 
the protections of section 230. This idea would stand section 
230 on its head.
    In 1995, it was another Republican, Congressman Chris Cox, 
who recognized that holding websites liable for content created 
by their users would have the perverse effect of discouraging 
websites from acting as Good Samaritans.
    Section 230 avoids what has been called the moderator's 
dilemma, ensuring that websites are free to remove 
objectionable content without increasing their legal risk. 
Facebook and other social media sites together employ literally 
tens of thousands of moderators to remove everything from sex 
trafficking ads to terrorist messaging. This simply would not 
have happened without section 230's encouragement of non-
neutrality.
    Consider Canada, where website operators have no general 
shield from liability for defamation claims over third party 
content. As one Canadian internet lawyer put it, ``The innocent 
dissemination defense may be available, but it requires a high 
degree of passivity and ignorance.'' I do not think anyone in 
this room really wants passivity from social media platforms. 
We want them to filter content, and there is just no way to 
demand their political neutrality at the same time.
    What President Reagan said about the Fairness Doctrine in 
1987 remains true today. Quote, ``History has shown the dangers 
of an overly timid or biased press cannot be averted through 
bureaucratic regulation, but only through the freedom and 
competition that the First Amendment sought to guarantee.''
    But instead of encouraging competition, a Fairness Doctrine 
for the internet would actually entrench today's tech giants. 
No, of course they will not like having to justify their 
content moderation decisions in court, and yes, they may very 
well restrict political discussions on their sites just as 
happened with broadcasting, but today's tech giants would be 
able to manage vague, arbitrary, and open-ended legal liability 
far better than any startup.
    Congress should avoid doing anything that will hinder 
competition online, and lawmakers should remember what the 
Supreme Court said in 1943. Quote, ``If there is any fixed star 
in our constitutional constellation, it is that no official 
high or petty can prescribe what shall be orthodox in politics, 
nationalism, religion, or other matters of opinion,'' unquote. 
The Fairness Doctrine would do just that: prescribe orthodoxy. 
This tired idea should be left in what President Reagan called 
``the dustbin of history.''
    Chairman Goodlatte. Thank you, Mr. Szoka. Professor 
Waldman, welcome.

                    STATEMENT OF ARI WALDMAN

    Mr. Waldman. Chairman Goodlatte, Ranking Member Nadler, and 
distinguished members of the committee, thank you for inviting 
me to testify today. My name is Ari Waldman, and I am a law 
professor at New York Law School.
    My goal today is to help the committee understand 
Facebook's editorial role, the dangerous implications of a 
world without content moderation, and the serious privacy 
implications of allowing Facebook and other social media 
companies to exist in a regulatory void. We all may have a 
First Amendment right, subject to some limitations, to say what 
we want free of government intervention, but we do not have a 
First Amendment right to Facebook's amplification of our words.
    So let's talk a little bit about how and why platforms like 
Facebook moderate content. We actually know quite a bit about 
what they do, partly because of the work of my colleague, Kate 
Klonick, and also because Facebook published 27 pages of their 
moderation guidelines just a couple of days ago.
    First, how? Content moderation is a complex ecosystem of 
technology and people. Moderation sometimes happens before 
content is published in that period between upload and 
publication. This is the automatic process using data-trained 
algorithms that screen out things like child pornography, 
copyrighted material, or graphic violence.
    But content moderation mostly happens after publication 
where moderators either proactively remove content that violate 
platform rules or reactively when users flag content that 
violates Facebook rules. For this, Facebook employs a large, 
layered team of people trained to do this work.
    Platforms have normative and financial incentives to 
moderate content. Every platform designs values into its code. 
One of Facebook's central values is to bring friends together. 
As a result, and in response to the manipulation of Facebook by 
fake news sources, the platform redesigned its news feed to 
privilege and prioritize posts from our friends rather than 
from media or business pages. That is why engagement went down 
for some of those media and business pages, not biased 
moderation. The result is that lots of content gets filtered 
out, but no more so from the right than from the left.
    When victims of racist, homophobic, and sexist tweets and 
comments post those comments to call out the aggressors, it is 
often the victims that get suspended or banned. Activists 
associated with the Black Lives Matter movement have reported 
just as many, if not more, takedowns of images, of police 
brutality, and racism than of any of the takedown anecdotal 
evidence from the right.
    Facebook has a long history of banning photos from 
breastfeeding mothers. In 2014, the company suspended drag 
performers for using their drag names. An advertisement for a 
book featuring a queer vision of Jesus was also rejected. The 
artist, Michael Stokes, who is best known for his portraits of 
soldiers wounded in battle has seen his portraits of queer 
soldiers taken down and his account blocked. At a minimum, 
mistakes happen on the left just as they happen on the right.
    Consider also what social media platforms would look like 
without content moderation. Gendered cyber harassment 
proliferates when platforms like Twitter and 4Chan do nothing. 
They become havens of hate that function to silence women and 
others' voices, as my colleague, Danielle Citron, has found. 
Queer-oriented geosocial dating apps that ignore content 
violation like racists and transphobic profiles become havens 
for nonconsensual pornography and cause untold emotional damage 
to victims.
    So why does this happen? Any content moderation that occurs 
algorithmically is subject to problems inherent in machine 
learning, biased data, inability to understand context, for 
example. Data-trained algorithms that determine what we see on 
our newsfeeds also cannot tell the difference between two media 
articles of widely different veracity. All they know is that a 
herd of highly motivated users and tight hyper-partisan 
networks are clicking on it and sharing it. To the algorithm 
and to Facebook, this is great.
    Engagement is at the core of the business model. The 
problem is designed in. When humans act, maybe content 
moderation is more art than science, and Facebook does not 
employ enough Rembrandts. Mistakes happen. Those mistakes are 
far more likely, the evidence shows, to burden marginalized 
populations, not Conservatives.
    Content moderation on Facebook is part of a larger 
narrative about how we lack even reasonable regulation and thus 
allow Facebook to take a cavalier approach to our privacy, our 
safety, and our civic discourse. This was on stark display when 
Facebook allowed data on 87 million of its users to be accessed 
in violation of its terms of service.
    So although the evidence is not there to suggest systemic 
bias when it comes to content moderation, there is evidence 
that Facebook, when left to its own devices, cares very little 
about the safety of our data. It only cares about collecting 
it. Reasonable steps must be taken to reign in Facebook's near-
unlimited power to violate our trust. Thank you, Mr. Chairman.
    Chairman Goodlatte. Thank you, Professor Waldman. Mr. 
Chavern, welcome.

                   STATEMENT OF DAVID CHAVERN

    Mr. Chavern. Thank you, Chairman Goodlatte, Ranking Member 
Nadler, and members of the Judiciary Committee. Thank you very 
much for inviting me to testify at today's hearing.
    My name is David Chavern and I am the president and CEO of 
the News Media Alliance, a nonprofit trade association 
representing over 2,000 news organizations across the United 
States and the world. Our members include some of the largest 
news organizations covering events around the globe as well as 
local publications focusing on issues that impact communities 
and daily lives and citizens of every State. Quality journalism 
is essential to a healthy and functioning democracy, and my 
members are united in their desire to fight for its future.
    Too often in today's information-driven environment, news 
is included in the broad term of digital content. It is 
actually much more important than that. While low-quality 
entertainment or posts by your friends might be disappointing, 
inaccurate information about the world can be immediately 
destructive. Civil society depends on the availability of real, 
accurate news.
    The internet represents an extraordinary opportunity for 
broader understanding and education. We have never been more 
interconnected or had easier access to information or quicker 
communication. However, as currently structured, the digital 
ecosystem gives tremendous viewpoint control and economic power 
to a very small number of companies. That control and power 
must come with new responsibilities.
    Historically, newspapers controlled the distribution of 
their product. They invested in the journalism and then printed 
it in a form that could literally be handed to their readers 
directly. No other party decided who got access to the 
information or on what terms. The distribution of online news 
is now dominated by the major technology platforms. They decide 
what news is delivered and to whom, and they control the 
economics of digital publishing. The First Amendment prohibits 
the government from regulating the press, but it does not 
prohibit Facebook and Google from acting as de facto regulators 
of the news business.
    Neither Google nor Facebook are or have ever been neutral 
pipes. To the contrary, their businesses depend on their 
ability to make nuanced decisions through sophisticated 
algorithms about how and when content is delivered. The term 
algorithm itself makes these decisions seem scientific and 
neutral. The fact is that, while their decision process may be 
highly automated, both companies make extensive editorial 
decisions about relevance, newsworthiness, and other criteria.
    The business models of Facebook and Google are complex and 
varied. However, we do know that they are both immense 
advertising platforms that sell people's time and attention. 
Their secret algorithms, and they are secret, are used to 
cultivate that time and attention, and we have seen many 
examples of the types of content favored by these systems, 
namely clickbait and anything that can generate outrage, 
disgust, passion.
    The systems also favor giving users information very 
similar to what they had previously consumed, thereby 
generating intense filter bubbles undermining common 
understanding of issues and challenges.
    All of these things are antithetical, actually, to a 
healthy news business and a healthy democracy. Good journalism 
is factual, verified, and takes into account multiple points of 
view. It takes a lot of time and investment. Most particularly, 
it requires someone to take responsibility for what is 
published.
    Whether or not one agrees with a particular piece of 
journalism, my members at least put their names on the product 
and stand behind it. Readers know where to send their 
complaints. The same cannot be said about the sea of bad 
information that is delivered by platforms in paid priority 
over my members' quality information.
    Honorable members of this committee, too much is riding on 
these issues to let them pass without action. The major 
technology platforms are no longer new or inconsequential; the 
choices they make have tremendous influences on the 
sustainability of the news business and many other industries 
across our economy.
    We offer no easy answer to the ultimate regulation of these 
companies. In many ways they present absolutely novel 
challenges to policymakers. However, with respect to the topic 
for today's hearing, a strong first step would be a simple 
acknowledgement of the immense filtering and decisionmaking 
power that both companies possess and exercise today.
    Neither company is neutral and it is wrong to pretend they 
are. And from that flows a clear need for both companies to 
have enforceable standards on their algorithmic decisionmaking, 
particularly as to fairness and openness, and systems and 
policies that award original, quality information and content 
provided by trusted news organizations employing professional 
journalists.
    With respect to the latter, we wish to express strong 
support for H.R. 5190, the Journalism Competition and 
Preservation Act of 2018, recently introduced by Representative 
David Cicilline. We believe this bill would go a long way 
towards reducing the imbalances in the current system of 
content distribution. Thank you very much.
    Chairman Goodlatte. Thank you, Mr. Chavern. We will now 
begin questioning under the 5-minute rule, and I will begin by 
recognizing myself. Ms. Hardaway, Ms. Richardson, thank you 
very much for your testimony and I am sorry you have been 
through the experience you have been through. Are you aware of 
other people on the internet--Conservatives, Liberals, 
anybody--who have also been censored by social media?
    Ms. Hardaway. Well, we are looking at people like Governor 
Sarah Palin, just a lot of people that have been censored.
    Ms. Richardson. Yes. Even down to the President of the 
United States has been censored as well with him having over 23 
million people on his platform unable to garner a million views 
on a video. Within an hour before the censoring he was able to 
do that. Now he cannot do that.
    Ms. Hardaway. So, yes, there is a lot of Conservative 
voices that are being censored.
    Chairman Goodlatte. Do any of your friends or family or 
fans reach out to you when they tried to view your content but 
could not?
    Ms. Hardaway. Oh, absolutely. We get tons of either 
emails--go down the side of our Facebook page on our polls.
    Okay, ``You all did not show up in my news feed.''
    ``I cannot find you all,'' or ``I put you in search. I 
could not find you all.''
    ``It took me a long time to find you all.''
    ``You all are not coming up.''
    Ms. Richardson. We also put out a video where somebody made 
a video where they tried to follow our page, and the way that 
Mark Zuckerberg and Facebook have their settings set, you click 
on follow but it defaults back to just standard. It would not 
let people stay on follow. And then whenever you click on 
follow to follow our page, for some people that were able to do 
so, they did not get a notification whenever we post our posts 
on our Facebook page.
    Ms. Hardaway. And can I just clarify? Facebook says in 
their ruling that if you like and follow a page, that you are 
supposed to receive a notification whenever we drop content. 
What is the purpose of them following and liking a page? That 
is the purpose of them following and liking a branding page, 
because they are going to see and view your content.
    So it is not fair for Facebook and Mark Zuckerberg to think 
that they can dictate to people and tell people what they can 
and cannot see in their newsfeed. I thought this was a platform 
for all ideas.
    Chairman Goodlatte. Thank you. I think all of our witnesses 
have had very valuable testimony, and I agree with a great deal 
of it. Mr. Szoka, I agree with you. We should not have a 
standard set for the internet like we used to have for 
broadcast media.
    Mr. Waldman, I agree with you that these companies are 
going to do this. They are going to be expected to do it. But I 
am most fascinated by Mr. Chavern's testimony and I want to get 
into the issue of what we do about it when people are wronged, 
like Ms. Hardaway and Ms. Richardson have been wronged.
    Right now, citizens can hold newspapers and other media 
groups legally accountable if they do certain things in their 
newspaper, whether it is publishing false information, showing 
indecent content, they use materials or photos they are not 
authorized or did not pay to use, and so on. Tech platforms are 
currently making in-depth decisions like newspapers make about 
what information users receive and how they receive it, often 
driven by financial and other unknown motives.
    So, Mr. Zuckerberg himself has repeatedly said that his 
platform is responsible for the content that they host. Should 
the tech platforms be subject to the same content regulations 
and civil penalties and libel and slander that those who 
produce the content are responsible for?
    Mr. Chavern. Well, thank you very much. I think we ought to 
acknowledge that these are novel businesses, right? People say 
are they media companies? Are they publishers? They are really 
attention businesses. They want more of your attention and they 
will feed information to get more of that attention.
    I think we all have to be concerned about paths that would 
lead to them having more overt control over content or being in 
the content businesses. I am not sure I am excited about----
    Chairman Goodlatte. How do we avoid that?
    Mr. Chavern. Well, I think we can start by making them 
responsible for the power and decisions they have today.
    Chairman Goodlatte. And how do we do that?
    Mr. Chavern. We will start by the algorithms, as we say--
these rules that they determine. They sort of talk broadly 
about them but nobody really knows what is in them. They are 
secret rules and if you have secret rules, you do not get the 
benefit of the doubt.
    I think they have to start by being much more transparent 
about their decisionmaking and actually having enforceable 
standards about that decisionmaking, about things like fairness 
and openness.
    That is the first place to start, because that is what they 
do today and they have to be responsible for what they can do 
today and they really are not. They have rules that nobody 
knows what they are. They have impacts that we can only vaguely 
tease out. They have to be responsible for their moderation of 
the content.
    Chairman Goodlatte. Should that come about by legislative 
action or by judicial decisions based upon breach of contract 
or libel or slander or----
    Mr. Chavern. I think, frankly, there are many ways to get 
there but we are going to keep having hearings like this as 
long as nobody knows how the secret rules are being applied. If 
you have secret rules, you are always not going to get the 
benefit of the doubt. And we are going to have to, either 
through legislation or through their own actions or could be 
other options, get to where there is much more transparency 
about their decisionmaking. They are responsible for 
prioritizing quality content, but as indicators of trust and 
not other kinds of content and ultimately answerable for these 
decisions they make, because currently right now they are not. 
I mean, we are just sort of guessing about what their 
algorithms do.
    Chairman Goodlatte. Thank you. Mr. Nadler.
    Mr. Nadler. Let me begin by clearing up one important item. 
Essential thesis of this hearing seems to be that social media 
companies use complex algorithms to suppress Conservative 
voices on the internet. Set aside for the moment whether or not 
you approve of filtering practices and content moderation 
generally.
    Mr. Waldman, yes or no: Is there any compelling evidence 
whatsoever to support the notion that Facebook, Twitter, or 
Google intentionally suppress Conservative content on their 
platforms?
    Mr. Waldman. No.
    Mr. Nadler. Thank you. Mr. Chavern, I hear your concerns 
about the effect of content filtering on the news media but yes 
or no: Do you have any evidence that Facebook, Twitter, or 
Google intentionally suppress Conservative content?
    Mr. Waldman. We have not looked, I have not analyzed that.
    Mr. Nadler. So the answer is no?
    Mr. Waldman. No.
    Mr. Nadler. Thank you. Mr. Szoka, you represent an 
organization that represents a Conservative point of view. Yes 
or no: Do you have any evidence that Facebook, Twitter, or 
Google intentionally suppress Conservative voices on the 
internet in particular?
    Mr. Szoka. No, Congressman.
    Mr. Nadler. No. Thank you. Absent any evidence on this 
front, let's move on. I would like this panel's help with the 
subject matter this committee should be addressing today.
    Mr. Waldman, earlier this week we met with Cambridge 
Analytica whistleblower Christopher Wylie. According to Mr. 
Wylie, SCL Group, a British company acting under the name 
Cambridge Analytica in the United States, operated as what 
Steve Bannon called a propaganda machine in the service of Mr. 
Bannon, the Mercer family, and eventually candidate Donald 
Trump.
    That propaganda was built in large part on information that 
Cambridge Analytica misappropriated from millions of Facebook 
users. We should be holding a hearing on this topic, but the 
majority did not even send staff to listen to Mr. Wylie's 
testimony when we had him the other day.
    Mr. Waldman, what does Cambridge Analytica tell us about 
Facebook's privacy policies and why should this committee 
prioritize those issues?
    Mr. Waldman. Cambridge Analytica's ability to access 87 
million, information on 87 million shows us that Facebook does 
not really care about our privacy. What allowed Cambridge 
Analytica to access that information was that the quiz, the 
psychological quiz allowed the designer to scrape information 
through Facebook's API. And the only reason why that exact 
situation, the exact Cambridge Analytica situation cannot 
reoccur today is because Facebook decided to just fix that and 
just stop third-party apps from allowing them to scrape 
information that way.
    So, that shows us that we are entirely at the mercy of 
Facebook's good graces to decide if they are going to allow 
this or if they are not going to. So, in this situation we are 
allowing Facebook to exist in kind of a regulatory void, as I 
mentioned, that leaves our data insecure.
    Mr. Nadler. Thank you. And what precautions, policies, or 
security protocols can Facebook and other social media giants 
use or require to prevent unauthorized third parties acquiring 
user data for commercial, political, and nefarious purposes?
    Mr. Waldman. Well, I think we have to start at Facebook 
actually enforcing its rules. We learned shortly after the 
Cambridge Analytica fiasco that Facebook has an internal 
procedure where people are supposed to check up on the data 
usage of third-party applications. There is an entire team 
about it.
    One of the former employees wrote an op-ed, I believe, in 
The Washington Post, that described yes, this was my job, but I 
was told that I really should not be walking through all the 
steps that I am supposed to. So all they did was call someone 
up and say, ``Hey, are you using this data in the wrong way,'' 
and then never followed up.
    So, at first we have to make sure that Facebook is engaging 
the tools that they have in order to make sure that this data 
is not being used improperly.
    Mr. Nadler. Thank you. Now, looking back at the election in 
2016, the Russian disinformation campaign may have reached over 
126 million Facebook users; accounted for more than 1,000 
videos in YouTube and included hundreds of thousands of 
messages and posts on Twitter. That accounts just for the three 
companies that were invited here today and whom I suspect would 
have come had Republicans shown that they take this subject 
matter seriously.
    Mr. Waldman, the Russian company indicted by the special 
counsel's office for conspiracy to defraud the United States, 
the conspiracy at the heart of the special counsel's work, 
spent an estimated $100,000 on Facebook ads. What information 
does this committee need from Facebook in order to determine 
the impact and reach of that ad by--quickly, if you could, 
because my time is running out.
    Mr. Waldman. Sure. We need what money was spent, where the 
money came from, what companies were involved, and what banks 
were involved; the way they were targeted; the algorithms used; 
and how that information was propagated.
    Mr. Nadler. Okay. I have one final question of a more 
general nature, again to Professor Waldman. Everybody here; Mr. 
Szoka, Professor Waldman, Mr. Chavern has said there is no 
evidence that they have seen that Facebook intentionally 
discriminated against Conservative views. But let's assume they 
had. Let's assume they had. Facebook is a private company. 
Sinclair discriminates against Liberal views. Is there any 
difference in principal? Should we permit--let's assume we 
decide that Facebook was completely discriminating against 
Liberals or against Conservatives. Should we do anything about 
that?
    Mr. Waldman. There is an editorial----
    Mr. Nadler. And the same question for Sinclair, for 
example.
    Mr. Waldman. There is an editorial----
    Mr. Nadler. Or Fox.
    Mr. Waldman. There is an editorial role here. That is what 
companies that host content do if they embed those particular 
values into their design. I am not sure that it is this 
Congress's or this committee's role to say that Facebook has to 
have X-amount of voices from the Conservative side and X-amount 
of voices from the Liberal side.
    Mr. Szoka. Congressman, I think I have made it clear that I 
think the fairness doctrine in whatever context is a terrible 
idea. The government has no business policing speech, period, 
but I do want to emphasize, Congressman Blackburn noted earlier 
that there are certain rules on the books about broadcast 
speech. Those rules have survived scrutiny only because the 
Supreme Court has refused to grant full First Amendment rights 
to broadcasters. I think that decision, Red Lion, from 1969, is 
outdated.
    But I just want to emphasize that we run into a real danger 
in these discussions of people saying well, why can we not have 
a certain regulation that exists for broadcasting? Why can we 
not have that for the internet or newspapers? And the answer is 
very clear because the internet, newspapers, and all other 
media other than broadcasting are fully protected by the First 
Amendment. Those rules would never survive First Amendment 
challenges if brought in court when applied to the internet.
    Mr. Nadler. Thank you. My time has expired.
    Chairman Goodlatte. Thank you. Without objection I would 
like to submit two publications for the record. One is 
``Censored: How Online Media Companies Are Suppressing 
Conservative Speech,'' by the Media Research Center; and the 
other is in an op-ed by Patrice Onwuka in The Hill titled 
``Diamond and Silk Offer Chance for Bipartisan Pushback on 
Social Media Censorship,'' in which it notes that in 2016 a 
coalition of over 40 left-leaning groups called on Zuckerberg 
to ensure that Facebook implements an anticensorship policy 
that honors and respects black lives. And in 2017 over 70 
social justice groups wrote to Zuckerberg, again calling out 
the consistent and disproportionate censorship of Facebook 
users of color. Without objection they will be made a part of 
the record.
    Chairman Goodlatte. The chair recognized the gentleman from 
Texas, Mr. Smith, for 5 minutes.
    Mr. Smith. Thank you, Mr. Chairman. Mr. Chairman, I do not 
have any questions, but I do have a statement that I really 
address to the missing panel, and you have to wonder what were 
they afraid of?
    Mr. Chairman, the censorship of Conservative voices by 
social media has become more frequent and the consequences more 
serious. Social media companies have repeatedly censored, 
removed, or shadow-banned Conservative journalists, news 
organizations, and media outlets that do not adhere to their 
political views.
    Google's new fact-checking feature appears to target 
Conservative websites. Several Conservative-leaning outlets, 
such as The Daily Caller, are routinely vetted by Google for 
their content. Equally partisan sites, such as Vox, The 
Huffington Post, Daily Kos, Mother Jones, and other leftwing 
outlets and blogs are not given the same treatment.
    In March Twitter censored a Drudge Report tweet of the 2020 
campaign slogan ``Keep America Great'' as politically sensitive 
content. Unfortunately, we can expect to see a lot more of 
these examples in the future. Facebook recently announced this 
month that it would cut news articles' share of the newsfeed 
from 5 percent to 4 percent. Facebook would boost certain 
trusted news outlets and suppress other less trustworthy 
sources.
    The term trustworthy is defined by Facebook, of course. A 
tech website, The Outline, found that the algorithm changes 
implemented by Facebook have disproportionately harmed 
Conservative publishers on its social media platform. They are 
getting fewer readers while their Liberal counterparts have not 
been impacted to the same degree.
    And who are making these decisions? The Media Research 
Center found that Liberal Twitter advisors outnumber 
conservations 12 to 1. Twelve U.S. members of Twitter's trust 
and safety council, which helps guide its policies, are 
Liberal, and only one is Conservative.
    Also alarming are the guidelines being written by these 
companies to define what is hate speech and what is fake news. 
Facebook's newly published community standards, which guide 
what content is allowed and what is prohibited, defined these 
terms for the American people. The Media Research Center has 
outlined how these hate speech guidelines can target 
Conservatives.
    For example, expressions of contempt, such as ``I oppose 
gay marriage,'' could put social Conservatives at risk. These 
new guidelines appear to protect illegal immigrants. Saying 
illegal immigrants should return to their country of origin 
would result in a violation of guidelines on Facebook. And if 
someone called an illegal immigrant who has not paid taxes but 
gets government benefits a free rider, that would be considered 
hate speech, according to Facebook.
    According to a 2017 Gallup poll, almost 60 percent of 
Americans are worried about the problem of illegal immigration. 
So, if those Americans were to post their concerns on Facebook, 
they would be accused of hate speech. A majority of Americans 
could be censored under Facebook's guidelines.
    As private companies, social media can censor or suppress 
anyone they want. That is their First Amendment right to 
freedom of speech. But they should be held accountable by the 
American people, and the public should realize they are getting 
slanted information. If social media companies continue to 
silence Conservative viewpoints, millions of Americans should 
either support alternative platforms or boycott the biased 
media.
    Thank you, Mr. Chairman, and I will yield back.
    Chairman Goodlatte. Sure. Thanks. The gentleman recognizes 
the gentlewoman from California, Ms. Lofgren, for 5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman. I think there are 
important issues to be examined when it comes to social media 
platforms. I do not know that the topic of today's hearing is 
really one of them. But I do have a question and I do not know 
whether you, Professor Waldman, or Mr. Szoka, are the right 
witnesses to answer.
    One of the reasons why the influence of the Russians 
resonated so well from their point of view was the use of bots 
in amplifying false narratives. And the question is what 
jurisdiction, if any, do we have to regulate, essentially, 
bots, false personas on a platform?
    I am not sure this is a great hook, but it occurred to me 
that all of the social media platforms have value based on 
their reach. And if, for example, you have a 2 billion person 
follower but 40 percent of them are not real, that that is an 
issue that relates to your stock value and really is a 
misrepresentation of value to investors.
    I wonder if you have thoughts on how we might either 
regulate or work with social platforms to reduce or eliminate 
false persona or bots on social platforms.
    Mr. Szoka. Congressman, thank you for the question. I just 
want to note at the outset that when we do that, we run the 
risk of restricting anonymous speech online. And I will note 
that Facebook and Twitter have chosen very different 
approaches, and that to me is the free market at work. Facebook 
is a community where everyone is supposed to use their real 
name; Twitter is not. And Twitter is, for that reason, much 
more vulnerable to the use of bots.
    Ms. Lofgren. If I may, I am not talking about anonymity. I 
am talking about false persons. Now, if you are Twitter and you 
say, you know, I have got a billion followers but half a 
billion do not exist, what does that say about your share 
value?
    Mr. Szoka. Well, the problem, Congressman, is 
distinguishing the fake follower from a real person. You know 
the old joke that on the internet no one knows you are a dog--
you could also say no one knows you are a bot. It is not easy 
to identify those accounts, and the more we pressure those 
companies to do that, the more we put them in a position of 
being accused of censorship, because they will inevitably make 
mistakes.
    So, of course, there are things that they could be doing, 
but this is a difficult technological problem and I am frankly 
very uncomfortable with the idea that the government, whether 
it is through the SEC, which indeed has started sending letters 
to companies. They sent one to Yahoo yesterday about a failure 
to notify its investors about a data breach. There are many----
    Ms. Lofgren. Well, a data breach is a very different issue.
    Mr. Szoka. They are very different.
    Ms. Lofgren. My time is almost up. I want to let Professor 
Waldman, who looks like he has something to say on it also to 
comment.
    Mr. Waldman. Thank you, Congresswoman. I remember that 
cartoon, and the internet is a lot more mature today. Our 
technology----
    Ms. Lofgren. Actually, everyone knows you are a dog, so.
    Mr. Waldman. The internet is a lot more mature today. The 
technology is a lot better today. I take the example--I think 
there is a role for regulatory agencies like the FTC to play, 
but we can also take the example of now Senator but then 
Attorney General Kamala Harris in California, who recognized 
issues with the technology companies that she had a 
responsibility to regulate.
    Got them in a room together and decided these are the tools 
that we need to work together on. We need to make sure that 
gendered cyber harassment is not proliferating nonconsensual 
pornography, et cetera, and together, using the stick of 
potential AG enforcement under California Online Privacy 
Protection Act and other regulatory tools, she got companies 
together to come to an agreement about how they are going to 
use technology to make their platforms safer. I think we could 
do that too. Let's try to first work with technology 
companies----
    Ms. Lofgren. Well, I come from Silicon Valley, so----
    Mr. Waldman. Yeah, of course.
    Ms. Lofgren. So, I am, you know, this is not a new concept 
to me. But the real question, I guess, is in terms--I do not 
think it is that difficult to identify bots, honestly. I mean, 
you know, maybe at some future date people will become more 
creative and it will be more difficult, but it is not so 
difficult now.
    And the question is what is the standard of knowledge for 
the companies, especially publicly traded companies, and what 
is their liability exposure in terms of securities. And maybe 
we need a securities expert to help answer that. My time is 
expired, Mr. Chairman. I yield back.
    Chairman Goodlatte. The chair thanks the gentlewoman and 
recognizes the gentleman from Ohio, Mr. Chabot for 5 minutes.
    Mr. Chabot. Thank you, Mr. Chairman, and I will go to Ms. 
Hardaway and Ms. Richardson, I think better known as Diamond 
and Spice, first, if I can. Diamond and Silk. My apologies. 
Hopefully I get the rest of it right.
    Ms. Hardaway. That is all right.
    Mr. Chabot. Mr. Nadler introduced and asked the other three 
gentlemen about whether there was any evidence of Facebook or 
others blocking Conservatives and they indicated no, they did 
not really have anything there. But he did not ask you those 
questions and it is my understanding that you have personal 
knowledge of this; in fact, experienced this yourselves, being 
blocked because it actually happened to you. Is that correct?
    Ms. Richardson. Yes, that is correct. And very deep in the 
settings of Facebook there is a setting called your categories, 
which Facebook labels individual account as either Liberal, 
very Liberal, Conservative, or very Conservative.
    Our personal Facebook account has been labeled very 
Liberal, thus meaning that anybody that is advertising or wants 
to advertise, that is the only type of advertisement that we 
will see on our Facebook page.
    So, if you are in a Conservative and you are advertising as 
a Conservative, your reach will not be far. The reason being is 
because there are individual Facebook pages that have been 
labeled as very Liberal.
    Now, with this particular setting, we cannot change it, we 
cannot correct it, we cannot update it. This has been a default 
setting set by Facebook for individual personal pages. With 
that setting set, if you cannot change it, then guess what? 
Facebook controls what you see.
    Ms. Hardaway. That is right.
    Mr. Chabot. Let me move on, if I can. It is my 
understanding that you comment, talk about a whole lot of 
different things, and one of those is President Trump, is my 
understanding.
    Ms. Hardaway. Yes, we do.
    Mr. Chabot. And I think, in general, you tend to agree with 
and agree with some of his policies and have been generally 
pro-President Trump. Is that accurate?
    Ms. Hardaway. We love our President. We love his agenda. We 
love this country.
    Mr. Chabot. And others have found fault with that, is my 
understanding. You have been criticized by some for that point 
of view. Is that correct?
    Ms. Hardaway. But that is their problem--not ours.
    Mr. Chabot. Right.
    Ms. Hardaway. That is right. Because this is our platform.
    Ms. Richardson. That is right. We do not solicit our page 
to them.
    Mr. Chabot. Right.
    Ms. Richardson. They come to our page and there is 
something called troll farms, where people come to our page and 
deliberately--and they thumb down our page. Facebook has a 
mechanism sitting there that when you thumb down our page you 
come to our page deliberately, thumb it down. Then there is an 
algorithm that is put in place where if you get too many thumbs 
down, now your page is restricted, blocked, your posts 
disappear, and then shadow banning is there, where we can see 
our posts but anybody else cannot see our posts.
    Ms. Hardaway. Right.
    Mr. Chabot. And do you think it is unsafe or it is hate 
speech to offer a positive view of our President?
    Ms. Hardaway. Excuse me?
    Mr. Chabot. Do you think some people--certainly you do not 
think that it is unsafe or hate speech to be positive about the 
President. Right?
    Ms. Hardaway. It is not unsafe or is it hate speech.
    Mr. Chabot. Right.
    Ms. Hardaway. To love this country and love and stand 
behind the President of the United States. When Obama was in 
office, if we had to get behind him, why not get behind this 
President right here?
    Mr. Chabot. Yeah. Let me follow up. And then some other 
things that you talk about: You have talked about, I think that 
you believe that we should control our borders. As a country we 
have a right to do that.
    Ms. Hardaway. Absolutely. Do not you----
    Mr. Chabot. Yup.
    Ms. Hardaway. Is not this place controlled? When I came up 
here today security had to check us out.
    Ms. Richardson. That is right.
    Ms. Hardaway. We just could not walk up in here. Do not you 
secure your house? The border should be secured.
    Ms. Richardson. And another thing--if illegal aliens do not 
have a right but if illegal aliens can come here to American 
and obtain the American dream, why cannot Diamond and Silk?
    Ms. Hardaway. That is right.
    Mr. Chabot. Very good. And some other things that you 
discuss, my understanding is, things like protecting the 
unborn. Is that something that you have discussed in the past, 
that you think we ought to protect those that have a right to 
have life? Is that something that you----
    Ms. Hardaway. Absolutely.
    Ms. Richardson. Everybody has a right to life.
    Ms. Hardaway. Yeah. And, first of all, those are our 
beliefs.
    Mr. Chabot. Right.
    Ms. Hardaway. And we have a right to those beliefs.
    Mr. Chabot. Right.
    Ms. Hardaway. What is wrong with the way we believe? Why is 
it now in this country whatever used to be right is wrong and 
what is wrong now is right? If I have a belief, that is my 
belief, but nobody has a right to censor my free speech.
    Mr. Chabot. Yeah.
    Ms. Hardaway. Nobody has a right to do it. And to 
maliciously and deliberately do it is what really irritates me. 
It just irritates me.
    Mr. Chabot. Very good. Thank you. I yield back, Mr. 
Chairman.
    Chairman Goodlatte. Chair thanks the gentleman. Recognizes 
the gentleman from Georgia, Mr. Johnson, for 5 minutes.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman. We could 
be here for a lot of reasons this morning. We could be looking 
into the manipulation of Facebook by the Russians to help 
Donald Trump get elected. We could be looking into the Russian 
interference with the presidential election. We could be 
looking at Russian hacking into State election processes. We 
could be talking about, in this committee, legislation to 
protect the Mueller investigation. None of those areas has this 
committee been involved with during the last 15 months that we 
have been in session.
    We could be talking about gun control. We could be talking 
about the Dream Act in this committee. No hearings whatsoever, 
but what we are dealing with today, we are giving a platform to 
Diamond and Silk, and you ladies are very impressive to me. You 
have taken something and you have moved forward with it, 
exercising your First Amendment rights and you have made a ton 
of money off of Facebook. Is that not correct?
    Ms. Hardaway. Absolutely not, because Facebook censored us 
for six months.
    Mr. Johnson of Georgia. Well, now, Donald Trump introduced 
you all at a rally last year and he introduced you all saying 
that you were very popular and you had made a ton of money 
based on your affiliation with him. Is that not correct?
    Ms. Hardaway. Let me tell you what he was talk----
    Ms. Richardson. That is not what he said.
    Ms. Hardaway. He was calling those things that were not as 
though they were, is what he was doing then.
    Mr. Johnson of Georgia. Okay. But he has given you----
    Ms. Hardaway. But Facebook censored us for----
    Mr. Johnson of Georgia. Hold on one second.
    Ms. Hardaway [continuing]. For 6 months.
    Mr. Johnson of Georgia. Hold on one second, ma'am. The 
point I am trying to make is you all have been bashing Facebook 
and you have been making a ton of money. Is that not correct?
    Ms. Hardaway. No.
    Ms. Richardson. Excuse me.
    Ms. Hardaway. No, no, no, no, no.
    Mr. Johnson of Georgia. You have not been----
    Ms. Hardaway. I will say it to the community.
    Mr. Johnson of Georgia. You have not been making a ton of 
money based on your bashing of Facebook?
    Ms. Hardaway. No, no, no. We did not bash Facebook. What we 
did, was we brought it to the light----
    Mr. Johnson of Georgia. But have you been making a ton of 
money?
    Ms. Hardaway [continuing]. On how Facebook has been 
censoring Conservative voices like ourselves for 6 months.
    Mr. Johnson of Georgia. Have you been making----
    Ms. Hardaway. Twenty-nine days, 5 hours, 43 minutes and 40 
seconds. That is what they did.
    Ms. Richardson. Now, I can tell you something. We did----
    Mr. Johnson of Georgia. Have you been making money? Have 
you been monetizing or----
    Ms. Richardson. They will not let us monetize on Facebook.
    Mr. Johnson of Georgia. So you have not been----
    Ms. Hardaway. They stopped it.
    Ms. Richardson. They stopped it.
    Ms. Hardaway. For 6 months, 29 days.
    Mr. Johnson of Georgia. So, they have been messing with 
your money, then?
    Ms. Hardaway. Exactly.
    Ms. Richardson. That is exactly what I was going to say.
    Ms. Hardaway. They limited our page, is what they did.
    Ms. Richardson. And you, too, did also by de-monetizing 95 
percent of our videos for no reason at all, deeming it as hate 
speak.
    Mr. Johnson of Georgia. But you are still selling 
merchandise on----
    Ms. Hardaway. But even if we sell merchandise, that does 
not have anything to do with Facebook. Facebook censored our 
free speech and shame on the ones that do not even see that we 
have been censored. Yeah, when the Black Lives Matter people 
complain about it, oh, everybody is up in arms.
    Let me just say this here. If the shoe was on the other 
foot and Mark Zuckerberg was a Conservative and we were 
Liberals, oh, all fences and all chains would have broken 
loose. You know it and I know it. But what I find appalling is 
that these Democrats, they do not want to take up for our 
voices because we support the President.
    Ms. Richardson. Democrats would be in the street right now 
marching and calling him all types of racist.
    Mr. Johnson of Georgia. I would like to give you a little 
bit more time. I would like to give you a little bit more time 
but I have got to move on. I have only got a minute left.
    Ms. Hardaway. Okay.
    Mr. Johnson of Georgia. But I appreciate you all for your 
entrepreneurial spirit.
    Ms. Hardaway. That is part of the American dream.
    Ms. Richardson. And we want to attain it too.
    Mr. Johnson of Georgia. And we are giving you a tremendous 
platform with this hearing to make a ton of money when it is 
over.
    Ms. Richardson. That is right. And I hope everybody who is 
on Facebook can follow us and----
    Ms. Hardaway. Yes. That is right. That is right. Because 
that is what it is supposed to be about.
    Ms. Richardson. That is what it is supposed to be about.
    Ms. Hardaway. It is supposed to be about the attainment of 
the American dream. We are African American women.
    Ms. Richardson. That is right.
    Ms. Hardaway. If illegal aliens can come over here and 
build businesses. Why cannot we? We were born on this soil. Oh, 
you do not have a right to silence my voice. Absolutely not.
    Mr. Johnson of Georgia. I have always heard, though, that 
diamonds are a girl's best friend.
    Ms. Hardaway. They are and they are hard, too, and if I 
have got to be hard and be firm with you, I will. You are not 
going to brush us off and dismiss us----
    Ms. Richardson. No, you are not.
    Ms. Hardaway [continuing]. Like we do not have merit here. 
These people censor us for no reason. They put limitations on 
our page for no reason, and that was wrong.
    Mr. Johnson of Georgia. But rather than diamonds, you are 
seeking money with Facebook. Is that not correct?
    Ms. Hardaway. Well, you know what? If Facebook is a 
platform for you to make money, then so be it. Everybody else 
does it.
    Ms. Richardson. That is right.
    Mr. Johnson of Georgia. Well, I respect----
    Ms. Richardson. And do not stop us from making any.
    Ms. Hardaway. And do not make us feel guilty because we and 
other people that have built their brand page want to make 
money. We spent plenty of money.
    Ms. Richardson. That is right.
    Mr. Johnson of Georgia. All right. Okay. I am with you on 
that. I am just astounded that this committee would stoop to 
this level to be positioning you all to make more money.
    Ms. Hardaway. We really thank the committee for allowing 
us.
    Ms. Richardson. For little voices like ours. It is little 
voices like ours.
    Ms. Hardaway. Because it was not you. You did not do it.
    Chairman Goodlatte. The time of the gentleman has expired. 
I thank the exchange. The gentleman asked the questions; the 
ladies answered his questions. And the chair now recognizes----
    Mr. Johnson of Georgia. I thank the chairman.
    Chairman Goodlatte. The chair now recognizes the gentleman 
from Iowa, Mr. King, for 5 minutes.
    Mr. King. Thank you, Mr. Chairman. Let me see. I am almost 
tempted to yield my time back to Mr. Johnson, but----
    Ms. Hardaway. Bring it.
    Ms. Richardson. Come on.
    Mr. King. Instead, before I forget, I have some documents I 
would like to ask consent to enter into the record. The first 
one is from Mr. Jim Hoft of The Gateway Pundit, St. Louis. And 
he is the one who initiated the beginnings of this hearing 
today. He has taken a pretty hard hit himself in multiple 
different ways, and I have watched as his views have gone from, 
been dropped down from 33 percent--Facebook page was 33 percent 
of the overall views--down to 3 percent.
    Ms. Richardson. That is right.
    Mr. King. One-eleventh of what it was. That would be 
evidence of censorship, in my opinion. A number of other 
comments in there that I would like to introduce that into the 
record along with a Christian publisher says Google banned it 
over faith we express, which illustrates that quoting the Bible 
can get you censored in this country.
    And there are multiple charts here delivered by Gateway 
Pundit of other--here is Gateway Pundit's traffic. Here is the 
President's traffic, which the gentleladies expressed in their 
testimony. The Young Conservatives' traffic, which went from 
around five and three-quarter million down to essentially 
nothing.
    In a similar period of time, multiple other sites, 
Conservative sites all of them, the graphics in the charts--it 
is the best material out here that quantifies this impact, I 
think, produced by Mr. Jim Hoft, and I hope that one day he can 
come and testify before this Congress as well, because my 
private conversation with him has been very powerful. And I ask 
unanimous consent to introduce these documents into the record, 
in hearing no objection.
    Chairman Goodlatte. Without objection, will be made a part 
of the record.
    Mr. King. I am sorry. Thank you, Mr. Chairman. And now, 
where do I go with this? My first thoughts are this. I am 
thinking about a situation like Jim Hoft and Gateway Pundit--
the fourth most influential Conservative pundit throughout the 
last election cycle--watching his traffic be cut to one-
eleventh of what it was just on Facebook alone.
    And I do not see that Jim Hoft has as much television 
presence, perhaps, as Diamond and Silk have. So I wanted to ask 
you, Ms. Hardaway or you, Ms. Richardson, if you did not have a 
spot on Fox News, if you had to rely on just watching your 
traffic go down on YouTube and on Facebook and on Twitter and 
wherever else, would you have a chance to have a voice to 
express this or could it be that because you had another outlet 
this issue came up far enough that now America is watching?
    Ms. Hardaway. Absolutely.
    Ms. Richardson. Absolutely.
    Ms. Hardaway. Because we had another outlet--because the 
Republicans, certain Republicans spoke out about it and took up 
for the little voices like ourselves, is how this came to 
light.
    Ms. Richardson. That is right.
    Ms. Hardaway. It is not--when they deemed us unsafe to the 
community, it would have been that. They told us we could not 
appeal. We would have been out. And this is what happens, 
oftentimes, with people in our country, particularly 
minorities, where these big giants, they take and they put 
their feet on your neck.
    They pull the rug right up from under you and then dare you 
to move. You know, they tell us to pull ourselves up by our 
boot straps, but how can we do that when they take those same 
straps and use them to hang us out to dry? That is not fair and 
that has got to stop in this country. And it stops today.
    Ms. Richardson. With everybody.
    Mr. King. You know, I really appreciate the way you look at 
the American dream. I want my right to earn the American dream.
    Ms. Hardaway. That is right. That is right.
    Mr. King. And is there any difference in your mind between, 
say, Facebook and Twitter and YouTube--those, we will call them 
utilities--not necessarily public utilities, but utilities. Is 
there any difference between them and, let's say, UPS and 
FedEx? If you are making your living selling things and 
shipping out on FedEx, is that any different than it is making 
your living by pitching a message out through Facebook?
    Ms. Hardaway. Absolutely, because listen, these platforms 
have it where you can monetize. You can make money off of these 
platforms. So, if you are building your brand and you are 
pumping money into building your brand, it is not fair for 
somebody to change the rules in the middle of the game. And I 
think that is what is happening with certain American--with the 
American people, some of them. You change the rules in the 
middle of the great game and then people are left out to dry. 
That is not fair.
    Mr. King. Let me clarify this question. What if you are 
producing a product, and maybe it is a home, little garage 
factory, or a larger factory, and you are shipping that product 
out on FedEx and FedEx decides you are Conservative, so we are 
not going to deliver your product to your customers. Is there a 
difference between what is going on with Facebook and what 
would be going on under that circumstance?
    Ms. Hardaway. Well, that would be to me discrimination.
    Ms. Richardson. Yeah. It is on both--discrimination on both 
sides.
    Ms. Hardaway. On both sides. And listen, wait a minute. 
This is for all voices. No voices should be censored.
    Ms. Richardson. None.
    Ms. Hardaway. This could be bipartisan. I do not care if 
you are on the left or the right, the deal is, is that no 
voices should be silent, and you should not be discriminating. 
It is a platform to express ideas, express all ideas.
    Ms. Richardson. All ideas.
    Ms. Hardaway. Not just one side.
    Ms. Richardson. That is right.
    Ms. Hardaway. Not just put it where it is one-sided, where 
I am just seeing Liberal group views, where you have my account 
deemed Liberal when I am very Conservative. I am a Republican, 
but you do not have that up there. And why are you making those 
decisions for me? Why did not you give us the opportunity to 
put in what we are, our political affiliation? And what does 
our political affiliation have to do with Facebook? Just think 
about that.
    Mr. King. I want to let you know that I tweeted you out to 
see if you were blocked on mine and you are still alive on my 
Twitter, so thank you very much. Appreciate your testimony and 
I yield back.
    Chairman Goodlatte. Would the gentleman yield for a----
    Mr. King. I would yield to the chairman.
    Chairman Goodlatte. I just want to thank the gentleman for 
yielding and take note that it would be nice if these three 
companies were here to explain themselves and their policies 
and whether they truly are fair to people all across political 
spectrums, because I put in the record Liberal organizations 
that were concerned about this too. They set themselves up as a 
platform. They need to promote free speech, not stifle it.
    Ms. Hardaway. Right.
    Mr. Nadler. Would the gentleman yield for a second?
    Chairman Goodlatte. The gentleman controls the time, but I 
yield him.
    Mr. King. I yield. I yield.
    Chairman Goodlatte. It is up to you.
    Mr. Nadler. Thank you. I just want to point out one thing. 
Ms. Hardaway and Ms. Richardson have had interesting testimony 
about their interactions with Facebook, and maybe Facebook has 
treated them unfairly and maybe not. I do not know. But that 
does not establish a pattern, which is the subject of the 
hearing. Every one of our other witnesses said there is no 
evidence that Facebook is discriminating against Conservative 
views in any way.
    There may be Liberal people who have had the same types of 
problems or not, and I have sympathy for our two witnesses, Ms. 
Hardaway and Ms. Richardson, for their difficulty with 
Facebook. But the basic thing is here no pattern has been 
established showing anything at all other than there was--that 
these two ladies have had a problem with Facebook. Maybe 
Facebook for some reason does not like them or whatever. But in 
any event, no pattern has been established. I thank the 
gentleman for yielding.
    Mr. King. Reclaiming my time. The documents that I 
introduced into the record do establish that pattern.
    Ms. Hardaway. That is right.
    Ms. Richardson. Exactly.
    Mr. King. And I hope you pay attention to that. And I thank 
you and I yield back.
    Chairman Goodlatte. The time of the gentleman has expired. 
The chair recognizes the gentlewoman from Texas, Ms. Jackson 
Lee, for 5 minutes.
    Ms. Jackson Lee. Mr. Chairman, thank you so very much, and 
let me also acknowledge my commitment to the First Amendment 
for all of the witnesses that are here, and our pointed 
questions to Ms. Hardaway and Ms. Richardson, obviously, 
because they come with important critiques that we need to 
address, and we need to address it fairly and we also need to 
get the facts.
    Before I do that, Mr. Chairman, I would like to pause on my 
time because I would like to acknowledge Takala Ann Allen and 
Madison, who are take-your-daughters-to-Congress, and I think 
Ms. Husband with a young lady here in the back. And I want them 
to stand and I want to acknowledge that this is Madison's 
birthday. Ladies, stand up.
    I know you can hear me. There you are. Thirteen--and you 
stand up, too. Thank you. Thank you so very much. I could not 
imagine a better place for them to view democracy. You may be 
seated. This is democracy in a judiciary committee meeting 
room. Let me----
    Ms. [unidentified speaker]: Will my colleague yield for 
just one second? I would like to introduce my daughter as well.
    Ms. Jackson Lee. I would be happy to yield. Mr. Chairman, 
are you pausing on my time, please? I need to--she wants me to 
yield for her to introduce her daughter.
    Chairman Goodlatte. Oh. Yeah. It will not count against 
your time.
    Ms. Jackson Lee. Okay.
    Mrs. Handel. Tatiana, stand up. From Philadelphia. Thank 
you for being here. Thank you.
    Ms. Jackson Lee. Thank you and be happy. In any event, I 
think it is important to note two things. One, there is a 
question of this hearing as to establish whether there was a 
pattern. I think that is very important. I think we would 
probably have to have 10 hearings and I do not view this 
hearing as particularly important.
    I do want to take note of the fact, Mr. Chairman, that the 
Senate has just passed, out of committee, the special counsel 
legislation, of which it would be appropriate for us to hold a 
hearing on the special counsel legislation to protect Special 
Counsel Mueller. That is in fact a bipartisan bill with a 
number of Republicans on it. So, I hope--and let me make a 
formal request that we do so and mark up that bill that had 
been introduced by Mr. Nadler.
    I would also like to introduce into the record articles 
from Ms. Hardaway and Ms. Richardson dealing with expressions 
of dismay or disagreement with a number of entities. I ask 
unanimous consent to introduce exclusive ``Diamond and Silk 
Crash Hillary Clinton's Race-Baiting''; ``She Is Not Our Slave 
Master''; ``Diamond and Silk Criticize Michelle Obama''; and 
then of course ``A Message for Oprah''. I ask unanimous consent 
to put these in the record?
    Chairman Goodlatte. Without objection.
    Ms. Jackson Lee. Thank you. And I think that it is clear 
that there is a First Amendment protection that you all deserve 
as I deserve it, as the witnesses deserve it. So let me pose 
these questions. Ms. Hardaway, have you ever been paid by the 
Trump campaign?
    Ms. Hardaway. No. We have never been paid by the Trump 
campaign.
    Ms. Jackson Lee. You have never been paid by the Trump 
campaign.
    Ms. Hardaway. We have never been paid by the Trump 
campaign.
    Ms. Jackson Lee. Not $5.00? Not $100?
    Ms. Hardaway. We have never been paid----
    Ms. Jackson Lee. What about $1,274.94?
    Ms. Hardaway. We have never been paid by the Trump 
campaign.
    Ms. Jackson Lee. Let me ask a specific question--$1,274.94?
    Ms. Hardaway. We have never----
    Ms. Jackson Lee. Thank you.
    Ms. Hardaway [continuing]. Been paid.
    Ms. Jackson Lee. Ms. Hardaway, my understanding is that you 
received the now-infamous email from Facebook, the email 
calling your page unsafe on April 8th, 2018?
    Ms. Hardaway. No.
    Ms. Jackson Lee. Is that correct?
    Ms. Hardaway. No, no, no, no, no, no. That was not April 
the 8th. We received that on April the 5th, 2018.
    Ms. Jackson Lee. Thank you. Now, on April 11th you appeared 
on ``The Ingraham Angle'' on Fox News to discuss this matter. 
The host, Laura Ingraham, asked did you get contacted by 
Facebook and has this been reversed? Had you been contacted by 
Facebook?
    Ms. Hardaway. We were contacted via Twitter on April the 
12th.
    Ms. Jackson Lee. You responded, ``We have not been in 
communication with Facebook. We have not been contacted. We 
have not spoken to anyone over the phone.''
    Ms. Hardaway. That is true. We had not been in contact with 
them. We have not spoken to anyone over the phone.
    Ms. Richardson. Right. They say it was in direct 
communications with us and we had not been in direct 
communications with them.
    Ms. Jackson Lee. But did you, on that show, say that you 
were not contacted?
    Ms. Hardaway. We were not contacted. We were contacted on 
the 12th. We were contacted on the 12th via Twitter.
    Ms. Jackson Lee. All right. So, are you saying that you did 
not lie on that show or you did lie?
    Ms. Hardaway. We did not lie on that show. We did that show 
on the 11th. We were contacted by Twitter on the 12th--by 
Facebook on the 12th via Twitter. And when we looked in our 
verifies, there they were.
    Ms. Jackson Lee. Is it your testimony today that as of 
April 11th, when you went on Ms. Ingraham's show and said that 
Mr. Zuckerberg had lied about trying to contact you, that 
Facebook never reached out to you or Ms. Richardson about this 
issue?
    Ms. Hardaway. Mark Zuckerberg said that they were in direct 
communication with us, like they had spoken to us. They did not 
do that.
    Ms. Jackson Lee. Did you get information from Zuckerberg or 
Facebook----
    Ms. Hardaway. No.
    Ms. Jackson Lee [continuing]. By, however, any means of 
communication?
    Ms. Hardaway. No.
    Ms. Richardson. No.
    Ms. Jackson Lee. You just said you got it through Twitter.
    Ms. Hardaway. We got it through Twitter on the 12th, on 
April the 12th.
    Ms. Richardson. The next day.
    Ms. Hardaway. Hold on for a moment. Ms. Jackson, do not try 
to mince my words. Let me explain to you this here. April the 
5th, 2018, they took and they deemed us unsafe to the community 
and told us it was not appealable.
    Ms. Jackson Lee. And you got in contact and----
    Ms. Hardaway. That was April the 12th, is when they----
    Ms. Jackson Lee. Ms. Hardaway, I am the one asking 
questions. You are in a judicial committee hearing, and I 
respect you and you are going to respect me. Now, my question 
is have you gotten contact from Facebook? And Ms. Richardson 
may want to answer it. Have you?
    Ms. Hardaway. No.
    Ms. Richardson. No.
    Ms. Jackson Lee. All right. And you are saying, under oath, 
that you did not, and so the Twitter is not communication? That 
is a tool of communication.
    Ms. Hardaway. The way you are asking that question is a 
little confusing and you are mincing words right here.
    Ms. Jackson Lee. Have you gotten any communication from 
Facebook?
    Ms. Hardaway. On April the 12th via Twitter.
    Ms. Jackson Lee. And what mode was that?
    Ms. Hardaway. That was via Twitter.
    Ms. Richardson. Via Twitter.
    Ms. Jackson Lee. All right. And so you got information. So 
your testimony that you did not is not truthful.
    Ms. Hardaway. That is truthful.
    Ms. Jackson Lee. Let me move on to Professor Waldman.
    Mr. Gohmert [presiding]. Time of the gentlelady is expired.
    Ms. Jackson Lee. I asked that my introduction of my two 
young ladies not be attributable to my time.
    Mr. Gohmert. How you use your time is yours and that did 
count on your time.
    Ms. Jackson Lee. That is not the case.
    Mr. Gohmert. Yes, it is.
    Ms. Jackson Lee. Professor Waldman, I would like you to 
answer this question.
    Mr. Gohmert. Time of the gentlelady has expired.
    Ms. Jackson Lee. If Facebook attempts to answer the 
question or respond----
    Mr. Gohmert. The time of the gentlelady has expired.
    Ms. Jackson Lee. Is that legitimate that Facebook can in 
fact----
    Mr. Gohmert. The time of the gentlelady has expired.
    Ms. Jackson Lee. Is that legitimate that Facebook can in 
fact----
    Mr. Gohmert. The time of the gentlelady has expired.
    Ms. Jackson Lee. Be held to a standard when they are trying 
to correct problems?
    Mr. Gohmert. If we are going to get through all the 
witnesses we have to observe these time guidelines. We cannot 
give everybody 2 extra minutes.
    Ms. Jackson Lee. Mr. Chairman, I asked for the chairman to 
have gotten out of the seat when he said yes, and the staff is 
standing here and they need to be able to speak up. I want this 
question answered by Mr. Waldman.
    Mr. Gohmert. Thank you, madam.
    Ms. Jackson Lee. Mr. Waldman, will you answer that 
question, please?
    Mr. Gohmert. Time of the gentlelady is expired. There may 
be time after everybody else has----
    Ms. Jackson Lee. Mr. Waldman, please answer the question. 
You are not going to be penalized.
    Mr. Gohmert. Time of the gentlelady has expired.
    Mr. Waldman. Facebook has an opportunity to make those 
decisions for its own [inaudible]. They do not do it in a 
biased way.
    Chairman Goodlatte. At this time we will recognize Mr. 
Biggs for 5 minutes.
    Ms. Jackson Lee. Thank you, Mr. Waldman.
    Mr. Biggs. Thank you, Mr. Chairman. This has been very 
interesting. I want to make clear, I keep hearing the Democrats 
say that all three of the male witnesses has testified that 
they have seen no evidence of any kind of bias against 
Conservative thought on these platforms. That is true, I think, 
with Mr. Szoka and Mr. Waldman. Mr. Chavern indicated, I think, 
that he had not indicated----
    Mr. Chavern. We had not examined the question.
    Mr. Biggs. They had not examined the question, so that to 
me is kind of a misrepresentation that we have heard 
consistently from our friends across the aisle all hearing. So, 
thank you for clarifying that, Mr. Chavern.
    I also want to add some additional information with regard 
to what we have seen here today. There are other reported 
instances besides Diamond and Silk's. I appreciate all five of 
you being here today.
    The Sportsman's Shop is an instance that they had, they 
noticed one day their Facebook advertisements promoting the 
sale of American flags had been removed. And after reaching out 
to Facebook they noticed that all of their advertising 
capabilities had also been made unavailable. This is a problem 
and Facebook provided the indication that anything linking to 
sales of firearms would be blocked henceforth, but not with 
companies like Dick's and Cabela's. This is kind of a--to me 
that is an indication of bias.
    Gizmodo has reported as well that news curators within 
Facebook have also admitted that they do suppress Conservative 
thoughts and ideas, and there has been some work done by other 
researchers, who have indicated that just under half of U.S. 
adults use Facebook for news. They are massively influential in 
news but when they changed their platform, we saw from January 
2018 a steady decrease in the top 25 biggest publishers on 
Facebook. They moved from many of the Conservative links, such 
as Fox News, Western Journal, et cetera--they moved 
consistently post change further down that list.
    Now, I do not think anybody has isolated the variables 
necessarily, to say that the audience may have changed, but it 
does provide some correlative indicia that the result of that 
algorithmic change by Facebook impacted the dissemination of 
Conservative thought and ideas, and that is what we are trying 
to get at today. We are not trying to get into the issue of 
privacy. That has been going on and other issues, and that is 
an issue that we can take care of as well.
    George Upper, the executive editor of Western Journal, has 
said, ``This algorithm change, intentional or not, has in 
effect censored Conservative viewpoints on the largest social 
media platform in the world. This change has ramifications that 
in the short term are causing Conservative publishers to 
downsize or fold up completely, and in the long term could 
swing elections in the United States and around the world 
towards Liberal politicians and policies.''
    Mark Zuckerberg said that, ``We have ruled out a number of 
changes to newsfeed that try to boost in the ranking broadly 
trusted news sources.'' The one thing that is interesting here 
is he does not indicate his definition of broadly trusted news 
sources until he gets to this: Wall Street Journal or New York 
Times. And he says, ``Even if everyone reads them, the people 
who do not read them typically just do not think they are good, 
trustworthy journalism.''
    And I do not know if that is true, either. But the point is 
they control this massive platform. They make money off this 
massive platform, and they then in turn regulate that platform 
themselves as right now I think it is their right to do. I 
think it is their right to do. The problem is they hinder, and 
perhaps deliberately so, the ability of others to pursue their 
ideal.
    Now I just wanted to quick point out, I think that it is 
very interesting because this was reported April 25th in 
Google--or excuse me, in Western Journal--that Google rejects 
permission to publishers that----
    Mr. Gohmert. The time of the gentleman has expired.
    Mr. Biggs [continuing]. Because they mention Bible and 
Jesus.
    Mr. Gohmert. The time of the gentleman is expired. Thank 
you. The chair recognizes Ms. Jackson Lee for a unanimous 
consent request.
    Ms. Jackson Lee. Mr. Chairman, I thank you very much. I 
just wanted to indicate to the witnesses that I want to make 
sure the First Amendment applies to all. I want to put it into 
the record, however, for Ms. Hardaway and Ms. Richardson that 
it may be these numbers up or down, but they have 650,000 on 
Twitter; 1.5 million on Facebook at this time; 140,000 
subscribers on YouTube; but I think they have grown in their 
Facebook numbers in the last 3 weeks upwards of 350,000. Let's 
let the First Amendment be the guiding post for these hearings.
    Mr. Gohmert. Was that a unanimous consent request? It does 
not sound like it.
    Ms. Jackson Lee. That is a unanimous consent. I asked--it 
is a unanimous consent. I am submitting these numbers into the 
record.
    Chairman Goodlatte. Well, they have already testified to 
something different, so I would have to object to that being 
submitted.
    Ms. Jackson Lee. Well, I have a right to put the materials 
in the record.
    Mr. Gohmert. Absolutely.
    Ms. Jackson Lee. Thanks. So, I ask unanimous consent.
    Mr. Gohmert. But with the testimony of others not as if 
that is--yeah, so we will allow that into the record.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    Mr. Gohmert. And I did want to make sure the gentlelady 
understood the time of the gentlelady was paused for 30 seconds 
earlier, so with the introduction, the applause, you did get an 
extra 30 seconds in addition to another minute and a half after 
the gentlelady--so the gentlelady had 2 more minutes than 
anybody else will have today.
    Ms. Jackson Lee. Mr. Chairman, thank you so very much.
    Mr. Gohmert. At this time the chair recognizes Mr. Deutch 
for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman. And thanks very much 
to all of our witnesses for being here today. Mr. Chairman, I 
represent the city of Parkland, Florida, where on Valentine's 
Day this year a young man walked into Marjory Stoneman Douglas 
High School with an AR15 and killed 17 people in 6 minutes and 
20 seconds.
    For hours students across the campus ran in fear, hid for 
their lives, hid in closets, inside locked classrooms. Now, the 
student survivors of Marjory Stoneman Douglas have received a 
lot of attention, not merely because of the attack and because 
they were there that day, but because of how they have 
responded. And that is because they have grown up in a world 
where mass shootings are relatively common. In many deeply 
disturbing ways they were prepared for this event.
    And in the days after, having grown up in an active shooter 
world where they all had active shooter training and, 
nevertheless, watched their friends die beside them--in the 
days after the shooting they did not hold back. They documented 
the reactions of their classmates as amateur reporters. They 
spoke out across the media. They called out this Congress's 
failure to do anything to stop these tragedies or this 
committee's only action on gun laws, opening up every State in 
the country to the lowest common denominator through concealed 
carrier reciprocity.
    I am tremendously proud of these students, but some people 
have used social media platforms to attack them. They have been 
called crisis actors. They have been called tools of the left. 
They have been disparaged and they have been defamed.
    David Hogg, 17 years old at the time of the shooting, was 
depicted as Adolph Hitler. Emma Gonzalez was shown ripping up--
this was a video she posted--ripping up a target. Then there 
was the photoshopped image of Emma Gonzalez ripping up the 
United States Constitution. This is real. This is bogus.
    And yet, and yet, this was circulated over and over and 
over again on the internet to willing viewers who were ready to 
accept it. The images went viral. Millions of users saw them in 
minutes. Truthers have spread lies, claiming that the event 
never happened. That the 17 people who were gunned down in my 
community did not die. That made the rounds on the internet. 
Just like they did and continue to do about the 20 6- and 7-
year-olds who were slaughtered at Sandy Hook. That is all 
published on the internet.
    So, I appreciate the conversation on free speech, but I 
would like to inject another concept into today's debate. That 
is the concept of morality. I would ask Professor Waldman 
first, is there a consideration of morality by the tech 
companies whose platforms are used to spread this vile and 
outrageous and offensive garbage that attacks kids and denies 
the very existence of a horrific event that tore the heart out 
of my community?
    Mr. Waldman. Facebook likes to call itself a neutral 
platform only when it suits them, in situations like this where 
terrible pictures get proliferated through their platform. But 
they know as well as we know that the problem is designed-in. 
Facebook likes when those images get spread around because they 
want the additional engagement. They want the clicks. They want 
the hyper-partisan networks to spread this around. So, they are 
not thinking about what is right and what is wrong.
    Mr. Deutch. Well, let me ask you a question. Are they under 
any obligation--I already asked about the moral obligation--is 
there any legal obligation to protect either the individuals 
attacked or others from this sort of ugly and defamatory 
content?
    Mr. Waldman. They are under no legal obligation to do so.
    Mr. Deutch. And is it--Mr. Chavern, if they are publishers 
and all of our witnesses have acknowledged the role that the 
technology companies play in distributing news. If they are 
distributing news, do they have some editorial responsibility 
to ensure that this type of, in this case, of the manipulated 
images, that this never appears and that the invocation of Nazi 
imagery also not appear. Is there any obligation to do that?
    Mr. Chavern. Well, they express editorial control, and this 
gets to the heart of my testimony in the sense that that kind 
of content through propulsion and the algorithms crowds out the 
content of my members; crowds out, by the way, the journalism 
that was done in your community about what happened, such that 
there was a built-in preference for content that drives 
attention but may not be accurate or correct.
    Mr. Deutch. This last question. Is it censorship to expect 
that this image, this false image, be taken down the moment it 
appears?
    Mr. Chavern. I think I would come at it a different way in 
that I think there is a responsibility to give at least much 
emphasis on content from responsible sources than to what we 
have is the opposite, is highlighting irresponsible sources.
    Mr. Deutch. Irresponsible and----
    Mr. Gohmert. The time for the gentleman has expired. I 
recognize myself for 5 minutes.
    There is a story from Facebook--I mean about Facebook on 
Fox News, where they list a number of things, like Lawrence 
Southern [phonetic sp] was suspended because of criticizing 
censorship, giving a specific example of that.
    The administration of a pro-Trump group was banned for 
saying Trump is not anti-Muslim, but he is anti-Isis.
    Facebook locked the kids out that posted videos supporting 
Rudy Giuliani's criticisms of Obama, calling it suspicious 
activity.
    Facebook approved Christian hate groups--and I am not even 
going to mention the names, they are so vile--coming after 
Christians but shut down Christian groups quite often. And 
examples are given like Kirk Cameron's movie, ``Unstoppable''.
    Christopher Campbell was blocked for 30 days for expressing 
his opinion that attacks in Cologne, Germany and the right to 
bear arms.
    Canadian censor--was censored for criticizing Prime 
Minister Justin Trudeau's response to refugee shootings.
    I mean there are lots of examples. And if you could indulge 
me, Mr. Szoka, Mr. Waldman, and Mr. Chavern, if you would look 
over to your right at these two ladies, I just--well obviously 
Mr. Waldman can then like to--well, thank you.
    But anyway, I just wanted you to see evidence of improper 
censorship. They are walking evidence of Facebook censorship. I 
know you say there is not any evidence, but there is and it has 
been given here today. It will continue to surface in the 
future.
    And I would like to also point out just an observation I 
have had: Alan Keyes, Clarence Thomas, they are heroes of mine, 
and they can let you know that nobody--and Silk can 
substantiate it--I do not think there is anybody in America 
that suffers more vile reproach and bigotry than black 
Conservatives. And if you throw Christianity on top of black 
and Conservative, you are just at the bottom of the pile. Alan 
Keyes has certainly experienced that. Clarence Thomas has as 
well.
    I did want to ask Ms. Hardaway and Ms. Richardson, you paid 
Facebook for your posts to be boosted on their platform. 
Correct?
    Ms. Hardaway. Sometimes we do.
    Mr. Gohmert. But you had an agreement for content promotion 
with Facebook. Was there not an example where you paid them to 
boost your platform and it was not boosted?
    Ms. Hardaway. Well we paid them to boost our platform, but 
it did not reach. And the reason why it did not reach is 
because they have labeled accounts as very Liberal that is not 
very Liberal. So, of course, your stuff is not going to reach.
    Ms. Richardson. And they also placed limits on our page. 
They have a little red sign there on the top of our Facebook 
page that stated that it was limited.
    Ms. Hardaway. Right. They did that. And I just need to 
clarify something, because I do not like to be called a liar. 
Facebook did not reach out to us until--via Twitter on April 
12th. The last time we heard from Facebook was on April 5th, 
when they deemed us unsafe to the community.
    Mr. Gohmert. Well when the Twitter was posted, was that 
posted only to you, where only you could see it? Or was that 
for everybody to see?
    Ms. Hardaway. We have a verified account, so when we went 
into our verified, that is when we saw it. And we were very 
transparent, because we put it out there online for everybody.
    Mr. Gohmert. But other people could see that.
    Ms. Richardson. Yes.
    Mr. Gohmert. So it was not just a communication to you; it 
was communication to the world.
    Ms. Richardson. It was on--that is right.
    Mr. Gohmert. You were not singled out. They did not 
specifically communicate to you?
    Ms. Hardaway. No. We were no----
    Mr. Gohmert. They put something out to the world to make it 
look like they were----
    Ms. Hardaway. Absolutely. Because they had got caught in 
the hot seat. Mark Zuckerberg had lied. Maybe he got it from 
his PR people. We do not know. But they were never in direct 
communication with us. And I just clarified that.
    Mr. Gohmert. Let me just point out. You know, FedEx, UPS, 
they hold themselves out as getting your package where you want 
it to go. But suppose they started saying, ``You know what? If 
you are a Conservative, if it is a Conservative destination, we 
are not going to deliver it.''
    I mean it seems like Facebook, YouTube, some of these are 
holding themselves out to be a public platform and be a public 
square, when actually they censor, they set up algorithms to 
determine who gets more--I mean it would be like saying you 
have a public square, but we are going to put you on the public 
square in a soundproof booth.
    So, in my last 10 seconds, let me just say I am not for 
more government regulation, but I do think since they are 
deciding what goes on and what gets censored, they should be 
liable. And I am working on laws to make that happen.
    And with that, I would recognize Mr. Jeffries for 5 
minutes.
    Mr. Jeffries. Thank you, Mr. Chairman. And I thank all of 
the very distinguished witnesses for your presence here today.
    A question for Mrs. Hardaway. Have you ever publicly 
expressed an opinion about the presidency of Barack Obama?
    Ms. Hardaway. No, because I was not into politics or 
anything like that. So when you say--wait a minute. Hold on. 
When you say public--well, not when he was in office.
    Let me back up. If I had something to say, it was during 
the election when they were running.
    Mr. Jeffries. And what was that opinion?
    Ms. Hardaway. That I did not think he was a good President. 
He did not do anything for the black community. Look at the 
people from Chicago, and he was from Chicago. So I had a very 
vocal opinion. But while he was in office, like before the 
election, I did not publicly say anything because I just was 
not into it----
    Mr. Jeffries. Appreciate that.
    Ms. Hardaway [continuing]. Until Donald Trump came along.
    Mr. Jeffries. Now are you familiar with a governmental 
entity called the Federal Election Commission?
    Ms. Hardaway. The FEC, I am.
    Mr. Jeffries. And are you aware that presidential campaigns 
are required to submit what is called campaign finance 
disclosure reports with the FEC?
    Ms. Hardaway. Yes.
    Mr. Jeffries. And those FEC disclosure reports detail 
contributions made to the Trump campaign. Are you aware of that 
fact?
    Ms. Hardaway. It could be. I mean, okay.
    Mr. Jeffries. And the FEC reports also publicly disclose 
what is called expenditures or disbursements made by the Trump 
campaign. Are you aware of that fact?
    Ms. Hardaway. Well, I keep hearing it. I heard somebody put 
out a news article that that was out there, but----
    Mr. Jeffries. Okay. Let me enter into the record, Mr. 
Chairman, I ask unanimous consent for what is called the post-
general election FEC report, filed by the Trump campaign on May 
12, 2017.
    Ms. Hardaway. Can he tell me how much----
    Mr. Jeffries. Sir? Mr. Gohmert?
    Mr. Gohmert. Without objection. Thank you very much.
    Mr. Jeffries. Now Ms. Hardaway, I think you stated on the 
record today at least three times, ``We were not paid by the 
Trump campaign.'' Is that correct?
    Ms. Hardaway. That is correct.
    Ms. Richardson. That is correct.
    Mr. Jeffries. Okay. Now are you aware that your testimony 
today is under oath, subject to the penalty of perjury?
    Ms. Hardaway. Yes. We are aware of that.
    Mr. Jeffries. Okay. Now the FEC report dated May 12, 2017 
states that on November 22, 2016, the campaign of Donald J. 
Trump for President, Incorporated paid Diamond and Silk 
$1,274.94 for field consulting. Are you familiar with that?
    Ms. Richardson. We are familiar with that particular lie. 
We can see that you do look at fake news. What happened is--and 
what should have happened is you should have come to our mouths 
to see what exactly happened before a false narrative was put 
out there about the $1,274.94.
    So, let me explain right now to you and the world----
    Mr. Jeffries. Hold on one second, because I want to give 
you an opportunity to explain, which is why I am asking the 
question.
    Ms. Richardson. Right.
    Mr. Jeffries. I am actually trying to figure out, are you 
calling this FEC document fake--well actually, let me get 
some----
    Ms. Hardaway. We are not calling them fake.
    Ms. Richardson. We are not calling them fake.
    Mr. Jeffries. Let me give you an opportunity to respond. I 
am struggling. I am really just trying to figure out. Right? 
Because you have an FEC document that clearly indicates that 
the two of you were paid for field consulting by the Trump 
campaign. That is just one document. There may be others that 
are out there.
    And presumably this was a document filed with genuineness 
and authenticity by the campaign of the President that you so 
love. And so I am just trying to figure out----
    Ms. Hardaway. We understand that this was----
    Mr. Jeffries [continuing]. Who is lying here? Is it the 
Trump campaign, or----
    Ms. Richardson. No. Wait, wait, wait.
    Mr. Jeffries [continuing]. Is someone not telling the 
truth?
    Ms. Richardson. Nobody is lying. However, there may have 
been a mistake from the Trump campaign when they wrote what the 
$1,274.94 was for. Actually, this was because we was asked to 
join the Women for Trump tour back in 2016. And Ms. Laura Trump 
asked that our airline tickets be refunded back to us because 
we paid for those tickets when we went from New York to Ohio.
    I have the email right here which substantiate what 
happened on September 11th, whenever Laura Trump wrote to Alan 
to tell them to reimburse us. So that $1,274----
    Mr. Jeffries. I appreciate that explanation. Now let me 
just ask you one final question----
    Ms. Hardaway. No. It was for a reimbursement.
    Mr. Jeffries. I understand.
    Ms. Richardson. That is right. Not field consultant.
    Ms. Hardaway. We have never been paid by the Trump 
campaign.
    Mr. Jeffries. I appreciate that, and I am just trying to 
figure out whether, consistent with what the President 
indicated, he urged you to monetize your support for him. And I 
am just trying to figure out----
    Ms. Hardaway. He urged us to monetize our platform and 
there is nothing wrong with that. As you as an African-
American, you are not going to make us feel guilty because we 
are going to get out here and we are going to take advantage of 
these platforms and monetize, just like everybody else do.
    I do not see you walking up to a white person and say, 
``Oh, you should not be monetizing that.''
    Mr. Jeffries. No. No.
    Ms. Hardaway. So why are you, as an African-American----
    Mr. Jeffries. Let me just----
    Mrs. Roby [presiding]. The gentleman's time has expired.
    Ms. Hardaway [continuing]. With us monetizing.
    Mr. Jeffries. I respect your game.
    Mrs. Roby. The gentleman's time has expired.
    Ms. Hardaway. It is not a game. It is not a game.
    Mr. Jeffries. I am trying to get an understanding of 
whether----
    Mrs. Roby. The gentleman's time has expired. I now 
recognize myself for 5 minutes. First, I want to thank Chairman 
Goodlatte for calling this hearing and also being open to 
listening to all of the witnesses' testimony here before the 
committee today on this very important issue that we must get 
right.
    The rights we hold as Americans should be upheld whether we 
are speaking words in an open forum, writing words in a book, 
or typing words online. So we have to uphold our First 
Amendment and its protections in all aspects of our society.
    While I did not get the opportunity to ask my colleague, 
Marsha Blackburn, a question, I am very glad that my friend and 
colleague had the opportunity to come before our committee 
today and discuss her own personal experience as well as her 
work here in Congress to be an advocate for an open and fair 
internet.
    As Representative Blackburn explained, she had her pro-life 
message about fighting the disgusting practice of the sale of 
baby body parts stricken from Twitter because it was deemed 
inflammatory and would cause a negative response.
    It is appalling to see that the very unborn children who 
cannot yet speak for themselves and has an advocate fighting 
for them to only be erased by others. I am proud to be 
unapologetically pro-life, and I strongly believe that our 
online platforms must be neutral public forums which would 
allow us to continue to speak out for the unborn.
    I am glad that all of you are here today and have had the 
chance to express your own unique circumstances with content 
uploaded on various online platforms. Your perspective is 
extremely valuable to this very important conversation.
    I would like to direct my question to Mr. Chavern--did I 
say that correctly--today. And I apologize, there are a lot of 
hearings going on right now, so you have seen members come and 
go. But I had the opportunity to hear firsthand from Michael 
Galvin and Ray Kroft the president and editor respectively of 
my hometown paper in Montgomery, Alabama, the Montgomery 
Advertiser. And as members of the news media alliance they have 
shared with me some of the concerns that you have expressed in 
your testimony today.
    I would like to ask you to use the remainder of my time to 
expand upon how apps and tech platforms are impacting local and 
regional journalism. With that said, before I turn it over to 
you to finish out my time, I just think that this is a very 
important conversation again, and I am grateful for the 
opportunity.
    I hope that this is the beginning of more conversations. As 
we have seen across many different platforms, as technology 
continues to progress it is important that Congress is 
listening and taking notes.
    And so, I will leave you the rest of my time to expand upon 
your testimony, but although the chairman is not here, he knows 
that I hope that we will continue to have more conversations 
along these lines.
    And again, I thank you each for being here with us today.
    Mr. Chavern. Thank you very much. Very kind of you.
    Fundamentally, as the communications and media world is 
progressing, Google and Facebook are the primary distribution 
mechanisms for news online. That is how people get their news. 
But the rules under which Google and Facebook manage their 
content emphasize low-quality news options and make it very 
difficult for people who are actually in the business of 
journalism and paying journalists and doing real reporting from 
making that a sustainable business.
    And if present trends continue, you have these huge 
incentives for really low-quality, bad information online that 
pushes out actually verified quality journalism. And that is 
not just bad for our business. Right? That is extremely bad for 
our civil society.
    You know, we will get to a place--people's curiosity about 
the world, what is happening in their communities, will always 
be there. The question is what will satisfy it? Will actually 
professional journalism satisfy it, or will it be free garbage 
that feeds inherent need for people to feel passionate and 
angry about something.
    Mrs. Roby. So setting a good example--my time is about to 
expire, but again, I look forward to continuing this 
conversation down the road. And again, I appreciate you all 
being here today.
    Mr. Chavern. Thank you.
    Mrs. Roby. I now recognize Mr. Lieu for 5 minutes.
    Mr. Lieu. Thank you, Madam Chairperson.
    This is a stupid and ridiculous hearing. The only reason I 
am still here is I want to enter some facts into the record; at 
least try to salvage some of this hearing.
    So, I want to put in the record an article from USA Today, 
December 5, 2017. It talks about the top two U.S. elected 
officials. Can I put that in the record? Okay. I will enter it 
later.
    The top three elected officials. Number one, Donald Trump; 
number two, Vice President Pence; number three, Speaker Ryan. 
The notion that social media is somehow censoring Conservative 
folks is ridiculous. And three witnesses today have testified 
that that is not happening. And we do not do laws by anecdote; 
at least I hope I do not. And we should not.
    But there is a more fundamental problem. The First 
Amendment applies to the government. Can we just get that 
clear? It does not apply to the strict content of private 
companies. So let us just go through something very simple. And 
I will ask you, Mr. Szoka. We do not tell Fox News what to 
filter. Right?
    Mr. Szoka. Correct.
    Mr. Lieu. And we cannot tell Facebook what content to 
filter; the government cannot. Right?
    Mr. Szoka. Correct.
    Mr. Lieu. That would just be flat out unconstitutional. 
Right?
    Mr. Szoka. Yes, sir.
    Mr. Lieu. We cannot force Facebook to carry Diamond and 
Silk if they choose not to. Is that right?
    Mr. Szoka. Correct.
    Mr. Lieu. You know, I have seen places that regulate 
content on the internet and the media. North Korea, Russia, 
Iran. We do not want to be like that. Why are we having a 
hearing about regulating content? It is unconstitutional to 
begin with. But let us go a little further into this.
    Everyone has a right to monetize. So Facebook monetizes. 
You know how they do--you know how I can get stuff out on 
Facebook and make sure lots of people see it? I pay for it. You 
pay for ads. And then they send it out. They do not care. The 
notion that somehow Facebook has to carry certain people and 
promote them is ridiculous. They do not have to do that. 
Twitter does not have to--these are private companies. They are 
not like UPS or FedEx. They are like publishers. They are like 
the media. And the fact that we are here debating should we 
regulate content of the internet is completely ridiculous.
    I do not know why the Republicans want to even think about 
doing this. What makes America great is we get to say stuff and 
not have the government intervene. And yes, do I think it is 
bad that there is no regulation on the internet? Probably. But 
you know what is far worse? Is to have the government regulate 
it. Who is going to decide? How do we even write a bill about 
how we force Facebook to carry certain people or not? Or 
Twitter to carry certain people or not? Or to promote people 
more or less? I do not know how you could write a bill like 
that.
    And this entire hearing makes no constitutional sense to 
me. So I want to get some more facts into the record here. So 
Mr. Szoka, the Communications Decency Act. It is true, is it 
not, that that is largely one of the things that caused the 
internet to expand and grow?
    Mr. Szoka. It is the law that made the internet possible.
    Mr. Lieu. And one of the prime features of that act is we 
are not going to go ahead and regulate and sue companies based 
on content. Is that not right?
    Mr. Szoka. That was a Republican idea in 1996.
    Mr. Lieu. Exactly. And when we tried this regulation of the 
media through this stupid fairness doctrine, it was Reagan that 
said, as you said, it should go into the trash of history. 
Right?
    Mr. Szoka. Yes, sir.
    Mr. Lieu. I always thought that the Republicans stood for a 
limited government; not having the government intervene into 
the aspects of private companies. I do not know why we are here 
at a Republican controlled judiciary committee talking about 
intervening into what Google or Facebook or Twitter or any 
other type of community should do or should not do. We should 
let the marketplace and ideas go out there.
    But guess what? If Facebook is not into that, if they want 
to write algorithms that promote certain things--let's say they 
want to write an algorithm that promotes cats. Can the 
government stop them from doing that?
    Mr. Szoka. Thankfully not.
    Mr. Lieu. And let's say Facebook figures out, you know, 
promoting cats gets a lot more people to sign on to Facebook 
than promoting Diamond and Silk. Can the government intervene 
and stop Facebook from doing that?
    Mr. Szoka. No.
    Mr. Lieu. And let's say Twitter figures out, you know, we 
are going to promote nice, cuddly images of furry animals 
rather than dismembered body parts. Can the government say you 
can not do that?
    Mr. Szoka. No.
    Mr. Lieu. And let's say Google has decided, you know, we 
are just not going to carry people that talk about Pizzagate 
anymore. Can the government say you cannot do that?
    Mr. Szoka. No.
    Mr. Lieu. Okay. I yield back.
    Mr. Rothfus [Presiding]. The gentleman yields back. The 
Chair recognizes themselves for 5 minutes.
    Mr. Szoka, you submitted testimony. In your testimony you 
gave a thoughtful analysis of congressional intent. Can you 
describe the approach courts have taken to determining when 
interactive computer service providers have immunity under 
section 230?
    Mr. Szoka. Thank you, Congressman. That is an extremely 
thoughtful question. This is exactly where people get confused.
    Section 230 is not an absolute immunity. It does not 
exclude criminal prosecution, and it depends on two things. 
First of all, you are only immune against civil litigation or 
State criminal prosecution for content created by third 
parties. Once you take a role in helping to create the content, 
once you become responsible for development of that content, 
even in part, you are no longer immune.
    So if Facebook starts actively creating content or editing 
user content in a way that changes meaning, or creates its own 
political content as it creates videos today, none of that is 
protected by section 230.
    Mr. Rothfus. Is there consensus among the courts on that 
analysis?
    Mr. Szoka. This is crystal clear. The courts have touched 
upon the term neutrality, but if you read those cases, it is 
very clear that they meant something completely different. What 
they meant was that the tools, for example, that Roommates.com 
used were tools that were not ``neutral'' because they required 
users to actually commit housing discrimination. That was a 
nonneutral search tool, but that is very different from 
political neutrality.
    The whole point of the statute is to give service providers 
immunity in making decisions about removing objectionable 
content. That is crystal clear.
    Mr. Rothfus. Well how does--again, neutrality does not 
appear in the statute. But how does it factor in to 230?
    Mr. Szoka. Well, if anything, section 230 is designed to 
encourage nonneutrality, to say to service providers, website 
operators, that they can make whatever decisions they want 
about removing content, and it is up to them. The only----
    Mr. Rothfus. Do you ever cross a line, though? Does it ever 
cross a line where an algorithm or something can be doing that?
    Mr. Szoka. There is one other line in the statute, which is 
that the immunity we are talking about here, section 
230(c)(2)(a), requires good faith. There is not a lot of case 
law on that because most of the case law is on the prime 
immunity, 230(c)(1). But good faith has been--for example, the 
courts have said things like if you were acting in 
anticompetitive ways, that would not prevent an antitrust suit 
against you.
    But there is no case law to suggest that good-faith 
requirement requires political neutrality. And I think that 
implying that would be unconstitutional. It would put the 
government in the position of determining what speech is 
appropriate and what speech is not.
    Mr. Rothfus. One of the things that, you know, I have been 
concerned about is the violent and extremist content that is 
out there. Your testimony referenced a news story that Facebook 
added 3,000 employees last year to help screen for violence. 
Again, this is an issue that we have in our culture.
    What is your assessment of social media platforms' 
screening procedures for filtering and removing content that 
displays extremist or violent content?
    Mr. Szoka. That they probably need to do more. I am a civil 
Libertarian, but as Congressman Lieu mentioned, this is not an 
issue of the First Amendment. I think these platforms have a 
moral responsibility to filter out content like that. And that 
is why section 230 is there, so they can make those decisions 
without fearing increased legal liability.
    But it is not for the government to dictate to them how 
they do so.
    Mr. Rothfus. You know, one of the things I have seen over 
the last 10, 15 years in our culture is this demonization, 
where the right demonizes the left, or the left demonizes the 
right. You cannot even have a policy difference anymore.
    And I am wondering, Ms. Hardaway and Ms. Richardson, do you 
feel as though you have been demonized?
    Ms. Hardaway. Oh, absolutely. Our brand has been tarnished; 
we have been lied on; they are saying it is a Facebook hoax. 
This is not a hoax. People's lives and livelihood have been 
damaged from what these giant techs do to people. They pull 
rugs from up under them. And then I hear people say well, oh, 
this is a private entity. This is not public.
    Well they went public in 2012.
    Mr. Rothfus. This is a separate issue. There is a cultural 
thing going on out there where it is not okay just to have a 
disagreement anymore.
    Ms. Hardaway. Right. Right.
    Mr. Rothfus. You know, people have legitimate policy 
disagreements in our country.
    Ms. Richardson. If this was a platform for all ideas, then 
anything about my political--I should not be categorized 
through Facebook based on my political affiliation.
    Ms. Hardaway. Right.
    Ms. Richardson. There should not be a mechanism placed 
there with Facebook to say what my political affiliation is.
    Ms. Hardaway. And we should start learning how to agree to 
disagree so that we can get along in this world, so that we 
will not bicker back and forth. We should use this here as a 
bipartisan effort to bridge the gap so that we all could have 
free speech. And we should act like it does not exist. We 
should act like that we are not being censored. That is what 
really irritates me and infuriates me.
    Mr. Rothfus. My time is expired. The chair recognizes the 
gentleman from Maryland, Mr. Raskin, for 5 minutes.
    Mr. Raskin. Mr. Chairman, thank you very much. I wanted to 
echo our colleague, Mr. Lieu, and saying that I am a little bit 
astonished that we have descended to the level of political 
theater and spectacle in this committee when there are so many 
important issues that we have not dealt with. For example, a 
universal criminal mental background check on firearm 
purchases, which is supported by 97 percent of the people, or 
what we can do to defend the Mueller investigation against 
continuing political attacks.
    But in any event, we are where we are. And I wanted to 
start with something Mr. Gohmert had said. He quoted a Fox News 
story about apparent reprisals or intimidation against a 
Facebook employee for political purposes. And then I quickly 
pulled up an article about political intimidation or reprisals 
against a Fox News employee for political reasons because she 
wanted to do reporting about climate change.
    Is there anybody on the panel who thinks that the 
government should be compelling Fox News to allow for the use 
of the words climate change or for stories about climate change 
if they do not want to run it? Is there anybody thinks that 
that is the role of the government? Okay.
    And is there anybody who thinks it is the role of the 
government to be compelling Facebook to follow some other 
ideological or political policy? Okay.
    So we all seem to agree, then, that the First Amendment is 
what operates in this field. And then the question of the 
government's role turns on the role of Section 230 of the 
Communications Decency Act, to which we have started to 
discuss.
    As I understand it, there is two parts to it. One is that 
the internet service providers and social media are not legally 
responsible for third-party content. But the other part of it 
is that they are not responsible if they decide to censor 
content based on it being pornographic, vulgar, profane, or--I 
think it is written in very vague, broad terms--or any other 
objectionable reason.
    I wonder if anybody wants to quickly opine on the 
constitutionality of that provision, because essentially what 
we are doing is we are taking what we have defined as a media 
entity that is protected by the First Amendment in other 
contexts, but then we are uniquely and selectively insulating 
them from legal liability for certain kinds of things, even not 
just in the case, I think, Mr. Szoka, you are talking about, 
where they did not know about what was going on, but if they do 
know what is going on, they could still be insulated legally 
from it.
    And I wonder if anyone thinks that that creates 
constitutional due process problems from the standpoint of 
someone who believes they have been libeled, or someone who 
thinks that they have otherwise been a victim of illegal 
conduct by one of the covered entities. If both of you take a 
shot at it.
    Mr. Szoka. So I take your point. I want to emphasize here 
that section 230 does not stop anyone from suing the person who 
has defamed them. So that is just off the table.
    The question is can you hold a third party responsible.
    And I would just emphasize that Congress understood that if 
you held the third party responsible, you would discourage them 
from being Good Samaritans.
    Mr. Raskin. But that is true of newspapers and TV just as 
well. I mean in New York Times v. Sullivan, the Supreme Court 
said the New York Times could be held accountable if it knew 
that it was publishing defamatory content.
    This seems to insulate the internet providers even when 
they know that something, for example, is defamatory, saying 
well, they have got a right to publish it anyway.
    Mr. Szoka. And the crucial difference here is the Congress 
understood in the bipartisan bill of 1996 that if you treated 
online service providers as if they were newspapers, at the 
scale of the internet where you could have billions of users 
and decisions that are made in real time, that you would not be 
able to have the newspaper screen content the way that service 
providers online screen content, the way that newspapers screen 
letters to the editor, because of the scale involved. And that 
as a practical matter, you would simply see online discussion 
of controversial topics cease. That user forums would no longer 
be available.
    Mr. Raskin. But you would agree, then, that does make it 
sound a lot more like a public utility, the way that Ms. 
Hardaway and Ms. Richardson are talking about it. They are 
making it sound there as if well, we are going to create 
special rules for them because everybody uses it and the volume 
of traffic is such----
    Mr. Szoka. No, sir. This protection applies to websites 
large and small. The smallest blog is actually the best, sir. 
They are the ones that need section 230.
    Mr. Raskin. No. I agree. It is all the blogs. But it is on 
the internet as opposed to, you know, the newspapers are 
responsible for what they publish, whether it is the New York 
Times or it is a community newspaper; whether it is a big 
reporter or small reporter.
    Mr. Waldman. If I may, I respect Mr. Szoka's opinion. And 
Mr. Szoka is one of our greatest experts on section 230; he 
works on it a lot.
    I have a slightly different view. I think his history is 
right. One of the reasons why Congress got together back in the 
1990s to make this law, those reasons do not really apply. The 
internet was quite different in the mid-1990s than it is now. 
We have a far more mature and a technologically different world 
that minimal changes to section 230 would not upend these kind 
of--not upend the kind of robust internet speech world that we 
have now.
    It would, however, allow some changes; would, however, pull 
back on this overbroad interpretation that the courts gave 
right after section 230 and allow more marginalized voices to 
have themselves heard.
    Mr. Rothfus. The gentleman's time has expired. The chair 
recognizes the gentlewoman from Washington, Ms. Jaypal, for 5 
minutes.
    Ms. Jayapal. Thank you, Mr. Chairman, and thank you to our 
witnesses for being here. I very much appreciate it.
    I will say that I share my colleague's frustrations that 
this committee has turned into a bit of a theater, and I am 
embarrassed, quite honestly, that this is where we are as a 
Judiciary Committee with the tremendous responsibilities that 
we have.
    I would remind the public that the Senate Judiciary 
Committee literally just approved, in a 14 to 7 vote, 
bipartisan legislation that protects special counsel Robert 
Mueller's investigation. That is what the Senate Judiciary 
Committee did in a bipartisan vote, because the Senate, on both 
sides of the aisle, seems to understand that we have deep 
responsibilities here as a committee.
    And for this committee to have a hearing that is supposedly 
on Conservative biases has allowed some important information 
to emerge, but in completely the wrong frame. We could be 
discussing serious issues around these platforms, and as we 
have been having some discussion with some of our witnesses, 
how do we address some of these big questions? Because really, 
there are tradeoffs; there are pros and cons. And we have 
consistently had to balance how we think about free speech, 
which has been a preeminent right in this country, with some of 
the challenges that come with that free speech.
    And so, Mr. Chairman, we have submitted on our side 
numerous requests and letters to have this committee focus on 
hearings around Russian interference into our elections. We 
have consistently asked for this committee to have hearings 
about the fact that 17 intelligence agencies in this country 
concluded that there was interference in our elections.
    We have consistently asked for--and I asked Attorney 
General Jeff Sessions when he testified before us--can we count 
on you to work on election security so that we can ensure that 
our elections are protected. And he said yes, we need to do 
that. We have not done that yet.
    That still has not happened. We have not even had a hearing 
on that topic. You know, and we could be having a hearing as 
the Senate did on this bipartisan legislation. We have the same 
bipartisan legislation introduced in the House. But we have yet 
to see any movement in this committee on that.
    And if we were truly serious about looking at how these 
filtering practices affect people on both sides, as you ladies 
said, that this should not be a partisan issue, then we would 
have not just Diamond and Silk here, but we would have Black 
Lives Matter, civil rights groups, groups representing Muslims, 
immigrants, the LGBT community. Because if we are going to talk 
about supposed censorship, not just of Conservative voices, 
then we should talk about how this is appearing on the other 
side.
    We should be, for example, talking about things that are 
discussed in this letter that I would like to ask unanimous 
consent, Mr. Chairman, to introduce this letter to the record. 
This is a letter from numerous civil rights groups to Mr. 
Zuckerberg and Ms. Sandberg about their concerns about 
censorship--or promotion of certain views on Facebook and what 
Facebook's responsibility should be.
    Mr. Rothfus. Without objection.
    Ms. Jayapal. Thank you, Mr. Chairman. And in this, though, 
they take a very different approach to what we have seen from 
Diamond and Silk. They actually say look, we understand this is 
complicated. We would like to discuss this with you. We would 
like to address these concerns in a setting that allows us to 
have a real conversation. They are not trying to use this to 
get more followers to their sites; they are not trying to 
monetize in different ways, you know, what is happening on 
these platforms. But they are saying let's have a real 
discussion. And I wish we were doing that today.
    There has actually been great testimony. There are things 
each of you have said that I really agree with. And I would 
like to turn to Mr. Waldman, because I was reading your written 
testimony, and in your written testimony you note that social 
media content posted by people belonging to marginalized groups 
are often ``squeezed at both ends'' by content moderation.
    Can you just explain a little bit more? And we do not have 
much time, but you have about 45 seconds or so.
    Mr. Waldman. Thank you. Thank you for the opportunity to 
expand on that.
    Very briefly, the point I was trying to make is that when 
there is too much content moderation, or too much 
``censorship'', the voices that tend to be more victimized by 
that censorship or by that moderation, tend to be marginalized 
voices; the clear voices, women, those who are dissenting from 
a majority view.
    When there is too little content moderation, when you turn 
platforms into the worst darkest corners of fortune, it is 
anyone who has the largest and loudest megaphone that gets to 
control the narrative. And that also victimizes and silences 
women and LGBT individuals through harassment.
    So this story, if we are going to talk about content 
moderation, the focus I think needs to be on how do we get 
voices that are so rarely heard, marginalized voices, to be 
heard on these platforms.
    Ms. Jayapal. Thank you.
    Mr. Rothfus. The gentlewoman's time has expired. The chair 
recognizes the gentleman, Mr. Cicilline, for 5 minutes.
    Mr. Cicilline. Thank you, Mr. Chairman. I would like to 
first associate myself with the remarks of many of my 
colleagues that the Judiciary Committee that has the 
responsibility of addressing legislation to protect the special 
counsel investigation, comprehensive immigration reform, common 
sense gun safety legislation, protecting our electoral system, 
and criminal justice reform, just to name a few. And we cannot 
seem to get a hearing and a serious examination of any of those 
issues, but here we are today.
    And it has been 2 weeks since Facebook CEO Mark Zuckerberg 
appeared before our colleagues in the Senate Judiciary 
Committee, the Senate Committee on Commerce, and the House 
Committee on Energy and Commerce in the wake of the Cambridge 
Analytical scandal.
    It has been over a month since Facebook met with our staff 
and left many questions related to this scandal unanswered. As 
I noted in the context of request that Mr. Zuckerberg appear 
before this committee on this matter, Facebook's breach of 
America's trust is a direct consequence of its dominance online 
that must be investigated by this committee.
    More than 200 million Americans have Facebook accounts, and 
three-quarters of them visit the site daily. And more than half 
of Americans access news through Facebook and its subsidiaries, 
Instagram and WhatsApp, and controls nearly a quarter of the 
digital advertising market, which is highly concentrated.
    Facebook also collects and mines every person's data across 
the internet, even for people without Facebook accounts, and 
creates shadow profiles with untold data points about people 
who have deleted their accounts or never signed up for Facebook 
in the first place.
    At the same time, Facebook has become too big and complex 
for any executive team to manage responsibly; has provided a 
back door through which America's enemies can attack our vital 
social and democratic institutions as the nonpartisan Open 
Markets Institute has noted.
    We should have an active role in examining these issues to 
ensure that our system of competition is working effectively. 
Increasingly it is clear that privacy and competition are 
interdependent conditions for protecting rights online.
    Rather than examining these serious issues and considering 
legislation intended to address these concerns, this committee 
is holding a hearing intended to perpetuate an entirely 
debunked narrative about two online social media personalities.
    This is a sad day for our committee. Nonetheless, I will do 
my best in my questions to make this time useful. So I am going 
to turn first to you, Mr. Chavern. I would like to begin by 
asking you about the impact of Facebook's gatekeeper power over 
America's access to trustworthy sources of news.
    And thank you for your reference to our legislation, and 
what affect does this centralization of America's access to 
quality journalism have on public trust, the marketplace of 
ideas, and our democracy. And I know you represent a number of 
publications around the country, so your views on this are 
particularly important.
    Mr. Chavern. Thank you very much. If I could give you an 
example. Recently Facebook announced that they were going to 
accord higher priority to ``local news''. That may or may not 
be a good thing. It will certainly change the news that people 
are exposed to, and it will have economic impacts, maybe good 
or bad, on a whole range of publishers.
    What do we not know? We do not know what priority means. Is 
that a little bit or a lot? How does that work? We do not know 
what local means, by the way. And we have no say or insight or 
ability to have a conversation about it. They established the 
rules in very vague ways and then apply them to, in particular, 
what I care about, the news publishing business, and change the 
news experience for citizens across the U.S.
    Mr. Cicilline. And how would the Journalism Competition and 
Preservation Act, which I introduced and you referenced, allow 
publishers to band together to negotiate with platforms to 
improve the quality, accuracy, attribution, and 
interoperability of news help protect a free and diverse press?
    Mr. Chavern. Well the one great thing we do as an industry 
is we provide a lot of great quality content on to the 
platforms. One thing we cannot do under the current law is 
collectively talk to them about things like what just happened 
with the algorithm. And the Act would allow us to do that and 
even the playing field even just somewhat to a better future 
for journalism.
    Mr. Cicilline. Thank you. Professor Waldman, you noted in 
your written testimony that a recurring theme of Mr. 
Zuckerberg's testimony was a desire for Facebook to give 
Americans more control over their data. In fact, you note that 
he used the word control 54 times in his testimony.
    But is the truth not that Facebook and other technology 
companies have the final say about whether people can move 
their key information to competing service, or communicate 
across platforms. And do you agree that limitations on people's 
control over their data can block new competitors, including 
platforms that might be more protective of consumer's privacy 
and give consumers more control of their data from entering the 
market.
    Mr. Waldman. I agree. I think Facebook's obsession with, or 
Mr. Zuckerberg's obsession with giving people control is 
completely illusory. In fact, what he means is allowing us to 
click left to right, or toggle left to right on an ``I Agree'' 
button about terms of service, and then we agree, give over 
control, and then we never have control again.
    Mr. Cicilline. And do you agree that giving people the 
tools to easily switch and communicate across services with the 
right security protection in place will remove barriers to 
meaningful choice and competition on line, that idea of 
portability.
    Mr. Waldman. I think that is worth further exploring. And I 
think Europe, in its general data protection regulation, has 
been exploring that for years. And that is going to take effect 
in just under a month.
    Mr. Cicilline. Thank you so much. Thank you, Mr. Chairman. 
I yield back.
    Mr. Rothfus. The gentleman's time has expired. The chair 
recognizes the gentlewoman from Florida, Ms. Demings, for 5 
minutes.
    Ms. Demings. Thank you so much, Mr. Chairman. And thank you 
to our witnesses for being with us.
    Before I get into my question, I cannot agree more with my 
colleagues from Rhode Island and Washington State and probably 
others who made the statement before I arrived that we have 
some critical big issues that we deal with on this committee 
and, you know, Russian interference, protecting the special 
counsel, election security, but here we are. So thank you for 
being here at our invitation.
    My question is for you, Dr. Waldman. There are numerous 
instances of reporting inauthentic accounts on Facebook and 
various other social media platforms. In most cases, this 
reporting is based on publicly available open-source 
information.
    If researchers that are unaffiliated with these social 
media platforms are able to identify so many examples of 
inauthentic accounts on public data sources, should the 
companies not, themselves, have access to far more information, 
including metadata associated with the creation of a page 
profile account or bought, that they could use to identify and 
remove inauthentic accounts?
    Mr. Waldman. Absolutely. And we know that they have this 
ability. A couple of years ago Facebook decided to aggressively 
enforce its real name registration policy of all communities 
against drag queens, because they were using their drag names 
as opposed to their real names.
    So we absolutely know that Facebook has the ability to 
identify what are real accounts, what are not real accounts, 
and when accounts violate their terms of service.
    Ms. Demings. Could you give, based on your knowledge and 
experience with this, could you give some examples of just what 
Facebook could be doing more of to combat this problem?
    Mr. Waldman. Sure. So there are multiple problems that I 
think Facebook has the tools to combat. So with respect to fake 
news, the proliferation of fake news on the platform, Facebook 
could be doing a lot more about identifying where the money 
from these posts come from; and identify, oh, this is a foreign 
government paying for it, this is a foreign entity paying for 
something, and then not allowing those sources to exist.
    There are also studies done by professors at Northeastern 
University as well as the University of Indiana that have 
identified that a lion's share of fake news comes from just a 
handful of sources, most of which are on the right. And if all 
Facebook did was say these sources which are well known as 
proliferating rumor, conspiracy theory, et cetera, are simply 
not going to be allowed on our platform, we would go so far to 
resolving the problem of fake news and its deleterious effect 
on our civic discourse.
    Ms. Demings. Thank you so much, doctor. And with that, Mr. 
Chairman, I yield back.
    Mr. Rothfus. Thank you. And I guess I get a couple of 
questions here. So, Mr. Waldman, Professor, you say basically 
the whole problem is right-wingers?
    Mr. Waldman. Oh, I never said that. I said that there are--
--
    Mr. Rothfus. You said if you eliminated this few group of 
people on the right, that it would go a long way toward----
    Mr. Waldman. It would. So the key point there is going a 
long way, not that it would solve the whole problem.
    Mr. Rothfus. Is a long way one percent, 99 percent?
    Mr. Waldman. The researchers at the University of Indiana 
identified that 72 percent, if I remember correctly, of fake 
news, the proliferator on Facebook during the 2016 election 
came from just a handful of sources, I believe it was eight, 
seven of which were identified with far rightwing ideas.
    Mr. Rothfus. Seventy-two percent sound right to you, or is 
it 72 percent of a particular group of ``fake news'' studied?
    Mr. Waldman. I am not an expert in this area, but the main 
point here is that this is a problem; these sites have to 
grapple with themselves. And quite frankly, I do not think this 
is a job for Congress, to be interrogating websites as to their 
content management practices.
    Mr. Rothfus. You know, we do not build aircraft here, but 
the FAA every time, and the National Transportation Safety and 
so on, every time there is a plane crash, we have an obligation 
to look into it. So I think for our two star witnesses here, do 
you think that we have a requirement to look into when things 
go wrong, essentially a plane crash of objectivity by new 
media?
    Ms. Hardaway. I do, especially with us being Americans. And 
these are the representatives that are supposed to represent 
Americans. And to offend us and make us think that we do not 
matter, this is exactly why we voted for someone like Donald 
Trump. This is exactly why. Because of stuff like this here.
    This here, what we are talking about, is real. It was done 
to us. And yes, it is your obligation to look into this, to 
make sure that it is fair across the board.
    Ms. Richardson. That is right. And if it is done to us, it 
could be done to you tomorrow. So it is for everybody, not just 
Diamond and Silk.
    Mr. Rothfus. I think you make a good point. The professor 
has his opinion and his facts, his sampling. But in the case of 
Mr. Zuckerberg, when he said the Facebook team made an 
enforcement error with regard to what happened to you two, what 
do you think the error was? And I will just give you some 
multiple choices. Do you think it was a coding error in their 
algorithm; human error; or an employment decision error?
    Ms. Hardaway. It was an employment lie. It was a lie. A 
straight up lie. And just to go back real quick with the 
Congressional Black Caucus, the notice that they wrote whenever 
they wrote to Mark Zuckerberg talking about censorship with the 
black voices.
    That letter was written August 22, 2016 to Mark Zuckerberg 
about censoring black voices. I just want to make sure that is 
entered in. But this goes clear across the board, clear across 
the board. This here was a lie. We have been back and forth 
with Mark Zuckerberg and Facebook for 6 months 29 days 5 hours 
40 minutes and 43 seconds, talking about----
    Mr. Rothfus. You are accurate----
    Ms. Hardaway. We have checks, we have emails back and 
forth.
    Ms. Richardson. Back and forth. They never gave us an 
answer. They put restrictions on our page; they censored our 
voices; they did not let our followers and our likes get their 
notifications; we did not show up in their news fake feeds. And 
that is a fact. And it is being done to other people as well.
    Ms. Hardaway. Exactly.
    Mr. Rothfus. So if I can summarize in my usual way, 
basically your free speech was limited in a modern age in which 
Facebook is a huge part of free speech, is it not?
    Ms. Hardaway. Exactly.
    Ms. Richardson. It was censored with those algorithms that 
they put on our pages.
    Ms. Hardaway. And it is going to come down to the point 
that if measures are not put in place, we are going to have a 
dictator here.
    Ms. Richardson. That is right. Because, see, Facebook is an 
entity that he can control the whole world. So if you are 
taking and you are censoring some speech and letting others 
rise, oh, we got dictatorship. This is not even. This is not an 
even playing field.
    And all we are asking, even out this playing field. Do not 
silence some and uplift others. Even it out.
    Ms. Hardaway. Especially having a bogus mechanism put in 
place that categorize people's political affiliation. And you 
have me categorized as very Liberal in my personal account. And 
we are Conservatives.
    Ms. Richardson. That is right.
    Mr. Rothfus. You know, it is one of those real challenges 
when they label anybody rather than allow each and every 
individual belief. I always say, you know, what would happen to 
poor Teddy Roosevelt if he came back today, because he was a 
proud Liberal and did a lot of things that were very 
individualistic.
    Well my time will be the last time, so I will run over a 
little bit. Professor, you know, I cast a hypothetical for a 
moment and I want to make sure I give you an opportunity. When 
you talk about the study out of Indiana and 72 percent, is it 
reasonable to believe that is 72 percent of a very small amount 
of what somebody decided was fake news; in other words, 
President Trump finds an awful lot more fake news perhaps than 
other people do. How do you know that they considered the 
entire universe of deliberate inaccurate activity? And I put 
that to any of our witnesses.
    Mr. Waldman. Well it seems as if we exist in a world right 
now where everyone's opinion about something can be considered 
fact and that is simply not true. The way social science 
research works is that you identify a corpus of data, and then 
you do a study on it, and then you analyze that information.
    So in these studies, what social scientists have done was 
say use websites like Snopes or PolitiFact, or websites that 
are recognized by people on both sides of the aisle as doing a 
good job in identifying what news story is say true, or what 
news story is a conspiracy theory.
    So based on that analysis or categorization of the data, 
then they determine what is and what is not.
    Mr. Chavern. Yes, sir. I think this focus on averages 
misses the reality of how this works. So what actually happens 
on a day-to-day level is that users drive a lot of this. Users 
can complain; they can report content that they think is fake. 
And if someone reports, for example, as Gateway Pundit did that 
the students in Florida were actors, were faking the whole 
thing, right? Someone is going to report that. And it is not 
surprising that that site is going to be downgraded because 
users are reporting their content is fake.
    These ladies have reported Pizzagate as a true fact, and 
they have spread misinformation that has caused people to 
report them. It is not for me to say whether they should be 
taken down, and frankly, it is not for them to say.
    Mr. Rothfus. I want to understand that in an organization, 
Facebook, that has no fact checking the way a normal historic 
newspaper would, where they actually hire people to ``fact 
check'' complaints that can come from self-serving individuals 
can drive the decision that something that somebody has done is 
wrong. And that is what you are saying is it is based on the 
opt in of people. Is that really fact checking?
    I mean, to be honest, the New York Times printed 17 
separate lies about me and retracted four of them, and the only 
reason they did not retract the others is they called it 
essentially poetic license when they said that my district 
office was overlooking a golf course and a country club. Well, 
you could not see it from the building. But if you were on 
Google Earth, you could see that there was a golf course less 
than a mile away. Unfortunately, I was overlooking a freeway 
with a lot of freeway noise. And they said yeah. But, you know, 
it had to read poetically.
    Now if that is the New York Times, you are telling me that 
people who simply are angry and complain is the way we are 
going to get to fairness. Is the original intent not--and I am 
going to ask a purely First Amendment question--that free 
speech is a right to say things which people do not like, and 
which at the time people may say is inaccurate, such as the 
world is round; such as bleeding people is not good for health. 
There are plenty of controversial things that were considered 
untrue at the time they were said.
    Mr. Chavern, you look like you are finally going to come in 
and join this for a moment.
    Mr. Chavern. Yeah. Happy to. I think--listen, and these 
companies have rules that prioritize some kinds of speech and 
not others, and they are allowed to have the rules. But you are 
also allowed to ask how the rules work, and ask if they are 
fair and what impacts they have on society. And these are not 
startup companies anymore. They are massive enterprises that 
control people's access to----
    Mr. Rothfus. Are they not effectively monopolies? Do they 
not have monopolistic power? If you are not on Facebook, you 
may in fact be unelectable or unheard-of or and the like?
    Mr. Chavern. Well there is definitely an argument that 
their access to data makes it very hard for anybody to compete 
with them. I mean how are you ever going to get enough data to 
compete with them?
    But the reality, just look at facts of the role they play 
in the economy. Look at the facts of the role they play in the 
news business. They are the primary distribution mechanism 
online between these publishers and readers. And their rules 
decide how that news is delivered.
    Mr. Rothfus. Ladies, you know, one of the amazing things to 
me is that nobody seems to want to call this very simply free 
speech except you two; that understand that because you happen 
to be Conservative, you found yourself--your speech being 
deliberately looked at much with greater scrutiny; maybe not 
exclusive to somebody on the left, but certainly you have been 
poorly treated. And I think that has been well documented.
    Ms. Hardaway. If I can also add that, you know, these 
platforms allow us the opportunity to build our brand on their 
platform. We do not solicit our page. People come to our page 
to like and follow our page because they like and want to hear 
our content.
    It is not fair for someone else to come deliberately to our 
page, thumb down our page, and then the repercussion of that is 
our page being blocked. If anything, Facebook, YouTube, 
Twitter, and these other entities should put in measures that 
the person blocked themselves from seeing our content if they 
do not want to see it, hear it, or read it.
    Mr. Rothfus. Let me ask you one question, and I think it 
was asked before I came back from--and I apologize because I 
was at the White House with 45 Wounded Warriors being honored. 
So I did miss the first part of this for a very good and 
appropriate cause.
    But, you know, there has been the question of whether or 
not you ``put up fake news.'' Ask you straightforward, have you 
ever done something that knowing more now you might have 
written it differently?
    Ms. Hardaway. Well, we do not--no. Because we normally make 
videos. And these articles are what third-party articles that 
we may put up occasionally. But we normally make videos. We do 
our Facebook live. And we talk about politics and what is going 
on in the world. We do whatever the next man is doing.
    Ms. Richardson. And we are basically stating our opinion 
about what is going on.
    Mr. Rothfus. So it is fair to say that except for 
expressing your First Amendment rights to an opinion, you have 
never knowingly put up anything that was false or deliberate. 
As far as I know you have never been sued for any kind of 
defamation and the like?
    Ms. Hardaway. Because anything that we put out, if we are 
not sure-sure about--allege. I will always allege, unlike some 
of these fake news sources that just put it out about us. But 
they do not allege nothing, as if it is true. And I am, like, 
none of that is the truth. None of that is true.
    Mr. Rothfus. But it is only fact when MSNBC says it is 
fact. Right?
    Ms. Hardaway. No.
    Ms. Richardson. According to the left.
    Mr. Rothfus. Well, I want to thank all of you for your 
indulgence for an extra 7 minutes, which is the benefit to 
going last.
    I do not think this is the last we are going to hear of it. 
I will tell you, in closing, that I think that we are going to 
have to--Congress and this committee are going to have to make 
sure that the First Amendment rights of people who choose to 
use large-scale, very powerful medium that is theoretically 
open to everyone, that we have to ensure that it is. We do that 
with broadcasts for elections. To be honest, I mentioned Teddy 
Roosevelt.
    You know, there was a time when Andrew Carnegie thought 
that it was just fine to decide whose ore he wanted to make 
sure could not be delivered on his railroad until they went 
bankrupt and then sold to him.
    Monopolies can gain a tremendous amount of power and 
advantage if they are not stopped early. And a monopoly of 
freedom of speech is, by definition, the most dangerous.
    So, on behalf of the committee and our chairman, I would 
say that this is not the last hearing we are going to have. And 
I thank you all for your participation. We stand adjourned.
    [Whereupon, at 1:02 p.m., the committee was adjourned.]
</pre></body></html>
